<html>
<title> - KOSOVO: ONE YEAR AFTER THE BOMBING</title>
<body><pre>[Senate Hearing 106-752]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-752

                   KOSOVO: ONE YEAR AFTER THE BOMBING

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-874 CC                  WASHINGTON : 2000


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Abramowitz, Hon. Morton I., board of trustees, International 
  Crisis Group; and former Assistant Secretary of State for 
  Intelligence and Research, Washington, DC......................    14
    Prepared statement...........................................    19
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    49
Bugajski, Janusz, director, Eastern Europe Project, Center for 
  Strategic and International Studies, Washington, DC............    35
    Prepared statement...........................................    37
Pardew, Hon. James W., Jr., Principal Deputy Special Advisor for 
  Kosovo and Dayton Implementation, Department of State, 
  Washington, DC.................................................     2
    Prepared statement...........................................     6
Williams, Dr. Paul R., assistant professor of Law and 
  International Relations, American University, Washington, DC...    23
    Prepared statement...........................................    26

                                 (iii)



 
                   KOSOVO: ONE YEAR AFTER THE BOMBING

                              ----------                              


                         THURSDAY, JUNE 8, 2000

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:20 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith (chairman of the subcommittee) presiding.
    Present: Senators Smith, Lugar, and Biden.
    Senator Smith. Good morning, ladies and gentlemen. We 
apologize for the delay in convening this hearing of the Senate 
Foreign Relations Committee. Too many duties early in the 
morning before this one today.
    I am pleased to have with me my colleague, Richard Lugar of 
Indiana, and our witnesses today. This morning we are here to 
examine the situation in Kosovo. It is almost exactly a year to 
the day since the war ended. We welcome on our first panel 
Ambassador James Pardew, Principal Deputy Special Advisor for 
Kosovo and Dayton Implementation at the State Department.
    We will then welcome Ambassador Morton Abramowitz, a member 
of the board of directors at the International Crisis Group, 
Dr. Paul Williams, assistant professor of Law and International 
Relations at American University, and Janusz Bugajski, the 
director of East European Studies at the Center for Strategic 
and International Studies.
    I appreciate the willingness of all our witnesses to share 
with us their thoughts on what has occurred in Kosovo over the 
course of the past year, and I look forward to hearing their 
views on how the United States should go about winning the 
peace.
    With the withdrawal of the Yugoslav military forces from 
Kosovo last June and the end of the NATO air strikes, the 
United Nations set up an interim administration and NATO 
deployed tens of thousands of troops in the region for 
peacekeeping duties.
    The goal of these missions was to establish a secure 
environment so that self-governing institutions could be formed 
and could function effectively. Certainly much has been 
accomplished since that time. Over 1 million ethnic Albanians 
were able to return to their homes in Kosovo and begin the 
process of rebuilding their lives.
    With the assistance of the international community, no one 
froze or starved this past winter. Elections are being planned 
for this fall, allowing the residents of Kosovo to choose their 
political leaders in a fair and open process. If serious 
problems persist in Kosovo, it may make it impossible for the 
United Nations and NATO to accomplish its stated goals. Of 
these, the most significant are the inherent contradictions 
between the statements of the international community, which 
call for substantial autonomy and self-government in Kosovo 
within the Federal Republic of Yugoslavia and the wishes of 
nearly all ethnic Albanians for independence.
    I wonder if the current policy of the alliance, that is, 
intentional ambiguity about the future status of Kosovo, 
whether this is the most effective way to proceed. 
Additionally, KFOR has been unable to prevent ethnic violence 
against Kosovar Serbs and other minorities, leading tens of 
thousands of them to flee Kosovo. Those that remain have 
boycotted interim structures established by the United Nations 
designed to bring Serbs and Albanians together for purposes of 
governing.
    The tensions are especially high in the northern areas of 
Kosovo, where most ethnic Serbs are living, and I fear that 
radical elements controlled by Belgrade will persist in 
undermining any chance of a peaceful resolution of those 
tensions. Incursions by ethnic Albanian militias into southern 
Serbia is also a serious cause for concern. Although they 
stated they will give up their effort to unify this area with 
Kosovo, I fear that their ambitions have not been fully 
abandoned.
    When the American soldiers intervene to prevent these 
incursions, there is a danger that they could be seen as the 
enemy by all sides. The slow pace at which the United Nations 
established its presence in Kosovo and its continued lethargic 
efforts at fully implementing its mandate has led to other 
difficulties as well.
    Judicial reform has barely begun, allowing various criminal 
elements free rein to operate. Indigenous administrative 
structures are not operational. The international police is 
woefully understaffed, and local police will not be able to 
fulfill these functions for quite sometime.
    I supported the NATO air strikes in Kosovo and I support 
doing what is necessary to win the peace as well. Difficult 
decisions will have to be made regarding what kind of Kosovo we 
want to see emerge. Postponing these decisions may be 
detrimental to the long-term interests of the United States and 
our allies in the Balkans.
    Again, I welcome our witnesses, and will turn to my 
colleague for his opening statement.
    Senator Lugar. Mr. Chairman, I join you in welcoming the 
witnesses. I look forward to the testimony, and why don't we 
just proceed.
    Senator Smith. Very good.
    Mr. Pardew, we welcome you and thank you for your presence, 
and invite your testimony now.

   STATEMENT OF HON. JAMES W. PARDEW, JR., PRINCIPAL DEPUTY 
     SPECIAL ADVISOR FOR KOSOVO AND DAYTON IMPLEMENTATION, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Pardew. Thank you, Mr. Chairman. I am very 
pleased today to update the committee on the situation in 
Kosovo 1 year after the NATO air campaign and intensive 
diplomacy brought the conflict there to a halt. I will briefly 
summarize my more formal testimony, which I would like to 
submit for the record.
    Senator Smith. Without objection.
    Ambassador Pardew. My presentation will highlight the 
accomplishments to date in Kosovo, identify the challenges--
many of them mentioned in your statement--facing the 
international community, and outline the course of action for 
the next several months as we see it.
    Next Saturday is the 1-year anniversary of the adoption of 
U.N. Security Council Resolution 1244 [UNSCR], authorizing the 
Secretary General to establish an international security 
presence and interim civil administration in Kosovo. This 
resolution is the foundation for the international effort in 
Kosovo, and will remain in effect until it is withdrawn by the 
unanimous vote of the Security Council. With the passage of 
UNSCR 1244, NATO forces already deployed in Macedonia and 
Albania moved quickly into Kosovo as the nucleus of the 
international security force, or KFOR.
    The international civil administration organization--the 
U.N. Mission in Kosovo [UNMIK]--last June had no funding or 
standing capability except for a humanitarian effort. The 
conditions facing the international organization in June 1999 
were daunting. Thousands of Kosovars were killed or missing, 
more than 1 million ethnic Albanians had been expelled from 
their home, Kosovo had no government, its economy was 
devastated, an insurgent force, the Kosovo Liberation Army 
[KLA], had grown from a very small group to over 26,000 people 
at the end of the conflict.
    Kosovo was devoid of laws and judicial institutions. There 
were no police, no judicial system, no prisons. Press 
facilities and equipment had been destroyed. Community service 
organizations, schools and clinics were damaged, looted, and 
destroyed.
    Much has been accomplished in the past 365 days. We have 
stopped the killing by Serb security forces. We have returned 1 
million refugees and displaced persons to their home areas, and 
we got them through the winter. Services are available to some 
degree in most areas. Schools are open. Basic health services 
are available, and the civil administration staff is being 
paid.
    The international community has begun Kosovo's transition 
to a market economy with a hard currency monetary system, and a 
new central bank. KFOR has overseen the demilitarization and 
disarmament of the KLA and created a civilian-oriented Kosovo 
Protection Corps [KPC]. UNMIK has appointed local judges and 
prosecutors, and trials are occurring in all districts.
    The international community has deployed over 3,000 police 
of the 3,500 authorized, and more than half of the special 
police have been deployed. Nearly 800 new recruits have 
graduated from the OSCE police school, and we hope to have 
4,000 trained by early 2001.
    Although recent violence has set back the Kosovar Serb 
participation in the interim administrative process, we are 
hopeful that the local Serbs will continue to participate in 
activities that affect their future. Today, 193 in-country 
voter registration sites are open, and almost 500,000 Kosovars 
have registered for voter registration and personal 
documentation. We have 7 daily newspapers, 39 radio stations, 
and 5 broadcast outlets operational.
    Mr. Chairman, as you mentioned, securing the peace and 
promoting democracy in Kosovo has been no easy task. Allow me 
to summarize some of the major challenges we face. I want to 
use this forum this morning to highlight one current issue, the 
recent vicious attacks on Serbs in Kosovo. We condemn these 
extremist attacks in the strongest possible terms.
    Vigilante attacks against minority citizens violate the 
principles of democracy and tolerance which we hold so dear, 
and divert attention and limited resources away from assistance 
to law-abiding people of Kosovo. We are urging local Kosovar 
Albanian leaders and the people to work with the UNMIK and KFOR 
to stop these attacks.
    Other challenges include the U.N. staffing procedure. The 
United Nations must improve its capability to deploy and 
organize staff for civil administrative structures. With over 
60 percent of its authorized strength, municipalities are not 
adequately governed, and key managerial positions have gone 
unfilled.
    In mid-May, the U.S. Government began an initiative with 
the United Nations and the European Union to resolve these 
staffing shortfalls. The United Nations in New York is 
delegating hiring authority to the field and assigning 
personnel specialists to UNMIK to speed up the hiring process. 
The criminal justice system in Kosovo remains inadequate. This 
spring, the United States conducted a comprehensive judicial 
assessment and organized a quick start program for local 
courts.
    OSCE is strengthening judicial training, and as an interim 
measure the Special Representative to the Secretary General 
plans to place international judges in Kosovo district courts 
to handle sensitive cases.
    Mitrovica and southern Serbia continue to be potential 
flashpoints. KFOR and UNMIK have developed a set of measures to 
address the issue in Mitrovica. The United Nations has 
appointed a strong regional administrator in Bill Nash, an 
American. KFOR has established control zones of confidence, and 
international judges and prosecutors have been appointed there 
to deal with the criminal issues.
    UNMIK is engaging an international consortium in the mining 
program in the area to begin preliminary work on the mines. 
Another challenge is demobilized members of the KLA, including 
those who have joined the Kosovo Protection Corps. Some of them 
have acted inappropriately. KFOR retains high standards for 
participation in the KPC organization, and we support a zero 
tolerance policy regarding illicit activities by members of the 
KPC. So far, KFOR has initiated 95 individual investigations, 
expelled four and suspended nine members of the KPC for 
misbehavior.
    Finally, the continued retention of power by the Milosevic 
regime in Belgrade obstructs progress in Kosovo, as it does 
elsewhere in the region. The sooner the Milosevic regime is 
replaced by a democratic alternative, the sooner the region can 
begin to heal.
    The recent crackdown on independent media and students 
shows that the regime is fearful, brittle, and in a downward 
spiral. We continue to oppose those individuals and actions 
that reinforce Milosevic, and we support those who promote 
democratic alternatives. Our focus for the next several months 
will be on establishing democracy in Kosovo, but defining the 
term in the UNSCR 1244 substantial autonomy in the interim 
period.
    The first step is to overcome the practical challenges that 
I have discussed previously. The second step is to establish 
the provisional institutions for democratic self-government 
under the international supervision of UNMIK, including 
municipal elections to be held in October.
    The issue of final status of Kosovo was set aside for now 
as we promote democracy, autonomy, and economic development. We 
have been clear and consistent that Europe must shoulder the 
lion's share of the resource burden in Kosovo. Our European 
allies accept this responsibility. Under normal conditions, the 
U.S. fields about 5,500 of the 45,000 troops in Kosovo plus 800 
support troops in Macedonia, thus our contribution to KFOR 
remains at about 14 percent of the total KFOR deployment.
    In other areas in the general category of revitalization 
and reconstruction for Kosovo, the total contribution for 
calendar year 2000 for all donors is about $1.1 billion. At 
$168 million, the U.S. contribution for 2000 for Kosovo's 
revitalization and reconstruction is about 14.6 percent.
    We understand and agree with the Senate's concerns about 
adequate burden-sharing in Kosovo, and we are vigilant in 
ensuring that our European allies honor their commitments. At 
the same time, the United States needs to fulfill its 
obligation as a party in Europe.
    Mr. Chairman, for months now several ideas have been 
proposed in the Congress that limits U.S. participation in 
Kosovo, or links our participation to levels of resource 
support provided by Europe. The message from the Congress on 
burden-sharing has been received loud and clear on both sides 
of the Atlantic.
    We continue to believe that legislation which limits the 
flexibility of this administration and the next one is 
unnecessary and unwise. Arbitrary percentages on ceilings on 
our participation risk reciprocal actions in the future, limits 
our policy actions, and degrades our leadership in the key 
security institutions.
    The engagement of the United States in Europe and our 
allies in Kosovo has been a success, but much work remains. We 
stopped the killing, restored regional stability, and are 
beginning to reinvigorate society and bring democracy to 
Kosovo. Our continuing engagement in Kosovo relates directly to 
our national security interest.
    Two days ago, we had another anniversary, the anniversary 
of the D-day landing, and that anniversary reminds us of our 
security linkage to Europe. Our security is served by our 
leadership and participation in European security institutions 
like NATO and the OSCE. We cannot expect these institutions to 
support our interest if we do not participate in important 
European security issues.
    Second, we know from history that a stable Europe is vital 
to American security, and that Europe is not stable if its 
southeastern corner is in turmoil. In the past 5 years, the 
United States and our allies have successfully contained and 
then subdued conflicts in Croatia, Bosnia, and Kosovo as the 
former Yugoslavia broke apart, but the area's stability remains 
at risk from the Milosevic regime and the fragile states 
recovering from the conflict.
    The international security and civil administration 
presence is critical not only to creating a secure environment 
in Kosovo, but for sustaining the peace and establishing the 
conditions for long-term stability in the region. The costs of 
our engagement have not been excessive, Mr. Chairman, and we 
must remain engaged with our allies.
    Thank you, Mr. Chairman, for this opportunity to update the 
committee.
    [The prepared statement of Ambassador Pardew follows:]

            Prepared Statement of Hon. James W. Pardew, Jr.

                        DEMOCRACY IN THE BALKANS

    Mr. Chairman, I am pleased to be here today to update the committee 
on the situation in Kosovo one year after the NATO air campaign 
expelled Milosevic's security forces from the area. Today, I wish to 
review the current situation in Kosovo, highlight the accomplishments 
to date, and identify the greatest challenges we face. I will conclude 
with some points on the key objectives in Kosovo over the next several 
months.
    First, let me go back slightly more than one year to pay tribute to 
the men and women of the Kosovo Diplomatic Observer Mission (KDOM) and 
OSCE's Kosovo Verification Mission (KVM). These unarmed international 
peacekeepers and diplomats, including a significant number of U.S. 
Foreign Service personnel, risked their lives daily on the ground in 
Kosovo seeking to avoid war in the autumn and winter of 1998. On March 
20, 1999, these peacekeepers were forced to withdraw, as the Milosevic 
ethnic cleansing program against the Albanian majority in Kosovo became 
increasingly brutal and made peacekeeping ineffective. Three days after 
they withdrew, NATO began the air campaign against the FRY that, in 
combination with an intensive diplomatic effort on many fronts, 
expelled Milosevic's security forces from Kosovo.

                           KOSOVO--JUNE 1999

    Almost exactly one year ago, a rapid series of events established 
the conditions for the international security force and the interim 
civil administration organization operating in Kosovo today. On June 3 
of last year, Belgrade accepted the G-8 conditions to pull its security 
forces from Kosovo and agreed to negotiate with NATO a Military 
Technical Agreement (MTA) spelling out the conditions for that 
withdrawal. On June 10, the U.N. Security Council adopted Resolution 
1244, authorizing the Secretary General to establish an international 
security presence and an interim civilian administration to restore 
order and governance to Kosovo. NATO suspended the air campaign the 
next day once the MTA was signed and the withdrawal of Serbian security 
forces had begun in earnest.
    Already deployed on the perimeter of the conflict to assist the 
humanitarian relief efforts in Macedonia and Albania, NATO forces moved 
quickly into Kosovo on June 12 as the nucleus of the international 
Kosovo Force (KFOR). The international civil administration 
organization, the U.N. Mission in Kosovo (UNMIK), had no funding or 
standing capability except for the humanitarian effort and could only 
begin to be organized after UNSCR 1244 was adopted.
    The conditions facing the international organizations in June 1999 
were daunting:

  <bullet> More than one million ethnic Albanians had been expelled 
        from their homes. Over 800,000 refugees were in camps in 
        Albanian and the former Yugoslav Republic of Macedonia, and 
        550,000 were internally displaced within Kosovo. Over 120,000 
        Kosovar homes had been systematically destroyed.

  <bullet> Kosovo had no government. Opposed to the 1989 imposition of 
        a Serb apartheid regime in the province, the Albanian majority 
        established a shadow state. FRY security forces murdered many 
        Albanian leaders and destroyed many of the informal networks 
        through which they governed.

  <bullet> Kosovo's economy was devastated. Without food, power, 
        sanitation, and shelter, a humanitarian disaster appeared 
        imminent.

  <bullet> An insurgent force--the Kosovo Liberation Army--had grown 
        from a small local group to an estimated 26,000 troops at the 
        height of the conflict.

  <bullet> Kosovo was devoid of laws and institutions. There were no 
        police, no judicial system, and no prisons.

  <bullet> Significant portions of Kosovo's television network were 
        incapacitated, including the large-scale destruction of its 
        towers, masts, and repeaters. Press facilities and equipment 
        were destroyed to prevent Albanian voices from describing the 
        scale of the devastation perpetrated by Belgrade.

  <bullet> Many community service organizations, schools, and clinics 
        were damaged, looted, or destroyed.

    While UNMIK continues to struggle in fulfilling its mission, please 
keep in mind the ad hoc nature of new international civil 
administrative organizations, and the sheer scale of the devastation in 
Kosovo. Both make the effort of rebuilding from the war and converting 
old communist structures to democratic ones much more arduous.

           JUNE 2000--MAJOR ACCOMPLISHMENTS IN THE FIRST YEAR

    The international effort to organize the interim civil 
implementation mission in Kosovo drew heavily on the lessons learned 
from Bosnia. The U.N. gave UNMIK a strong mandate supported by NATO and 
the international community, and established clearer lines of authority 
for the mission. Additionally, the relationship between the civilian 
and military missions in Kosovo has also been close and effective.
    We often wish implementation measures would move faster, but much 
as been accomplished in Kosovo in the past 365 days:

  <bullet> The intervention by the international community stopped the 
        killing by Serb security forces.

  <bullet> International agencies helped return over one million 
        refugees and displaced persons to their homes. Last winter the 
        international community provided 75,000 shelter kits to 387,000 
        Kosovars, averting a large-scale humanitarian disaster. Since 
        August 1999, UNMIK has begun to rebuild destroyed houses, 
        primarily with European donations. Electricity is being 
        restored to the province, with the repair of 50 power station 
        transformers. Two of Kosovo's five generators are also 
        operational.

  <bullet> Services are available to some degree in most areas, schools 
        are open, basic health services are available, and the civil 
        administration is being paid.

  <bullet> The international community has begun Kosovo's transition to 
        a market economy with a ``deutschmark'' monetary system and a 
        new Central Bank. A micro-credit bank has been established in 
        Kosovo, and will assist in the financing of small start-up 
        businesses. UNMIK has submitted a strategy for private sector 
        development, which has been favorably received by the Interim 
        Administrative Council (IAC). Upon IAC approval, UNMIK will 
        implement the proposed commercial code and phased privatization 
        program.

  <bullet> KFOR and UNMIK together have begun to establish public 
        order, but under a new system that will promote a rule-of-law 
        society. The level of ethnic violence remains too high, but it 
        is down significantly from the early days of the international 
        deployment.

  <bullet> KFOR has overseen the demilitarization and disarmament of 
        the KLA. The former KLA handed in 10,000 arms during the 
        demilitarization process; 3,800 other small arms have 
        subsequently been collected and destroyed. The international 
        community created the Kosovo Protection Corps (KPC), a civil 
        emergency services organization of 5,000, to employ former KLA 
        in useful public service efforts.

  <bullet> UNMIK has appointed 242 local judges and 75 local 
        prosecutors, and re-established the Supreme Court, municipal 
        courts, and other minor courts. Trials are occurring in all 
        district courts and some lower courts.

  <bullet> The international community has deployed 3,035 of 3,593 
        regular police authorized for Kosovo; 540 of these are from the 
        United States. More than half of the 1,125 special police (609) 
        have also deployed, with more on the way. A Spanish unit should 
        arrive in Kosovo in about a week.

  <bullet> UNMIK and OSCE have accelerated the training of an 
        indigenous, multi-ethnic police force to hasten the 
        commissioning of 4,000 officers by early 2001. To date, nearly 
        800 new recruits have graduated from the OSCE police school.

  <bullet> Barred from participation in official Yugoslav institutions, 
        Kosovar Albanian leaders are involved in democratic governance 
        with UNMIK's guidance. Recently, the Gracanica Serbs, under the 
        leadership of Bishop Artemije, joined Kosovo's interim 
        administrative institutions as observers. Although recent 
        violence has set back Kosovar Serb participation in these 
        institutions, we are hopeful that the local Serbs will continue 
        to participate in activities that affect their future.

  <bullet> In April, UNMIK, through the OSCE, began a Kosovo-wide voter 
        registration program. Today, 193 in-country sites were open, 
        and over 400,000 people have been registered. Out-of-area 
        registration is underway in-person in Montenegro, Macedonia, 
        and Albania. The voter registration process is the basis for 
        issuing internationally recognized identity papers, but more 
        importantly, it lays the foundation for the involvement of the 
        people in democratic political institutions.

  <bullet> An independent and vibrant media environment is emerging in 
        Kosovo today. Kosovo now has 7 daily papers, 39 radio stations, 
        and 5 television broadcast outlets. The U.S. is supporting 
        independent television stations, and is working with moderates 
        in the Serb National Council to establish a radio station in 
        Central Kosovo that is scheduled to open in June. Its 
        broadcasts will reach the majority of Serb enclaves in Kosovo.

                           CURRENT CHALLENGES

    As expected, securing the peace and promoting democracy in Kosovo 
is no easy task. Allow me to summarize some of the most significant 
challenges we face today.
    The U.N. must improve its capability to deploy and organize staff 
for its civil administrative structures. While UNMIK has begun to 
address the problems caused by Belgrade's actions, it has not fully 
established its authority over civil administration. With only 60% of 
its authorized civil administration staff deployed, it has not been 
able to adequately govern many municipalities. Additionally, some key 
managerial positions have gone unfilled. The United Nations' system of 
personnel recruitment and appointment has slowed significantly the 
civilian implementation process in Kosovo.
    The Department of State is making a concerted effort to focus 
international attention on UNMIK's staffing problems. In mid-May, a 
U.S. government team began coordinating with the U.N. and EU on a plan 
to remedy civil administration staffing shortfalls. The EU is also 
supporting an initiative with the aim of soliciting qualified personnel 
from its member nations for vacant positions in the EU pillar. In 
addition, the U.N. in New York is delegating hiring authority to the 
field and assigning personnel specialists to UNMIK to speed the hiring 
process. These measures are a welcome beginning to much-needed reform.
    The criminal justice system in Kosovo remains inadequate. Courtroom 
facilities must be improved and the trial monitoring structure should 
be strengthened. In some instances, local judges have been unable to 
effectively try cases and the number of supplemental international 
judges is not enough to compensate. More civilian prison space is 
required. This spring the United States conducted a comprehensive 
judicial assessment and organized a ``quick start'' program to deliver 
much needed electrical generators and office equipment as early as this 
month to local courts. We are also working with the OSCE to strengthen 
its judicial training capacity. As an interim measure, until local 
judges are sufficiently trained in democratic law and secure enough to 
consider adjudicating a full docket, the SRSG plans to place 
international judges in all Kosovo district courts to handle sensitive 
cases.
    Another weak spot in the criminal justice system is the lack of 
sufficient detention facilities and experienced personnel to run them. 
UNMIK has trained about 260 corrections officers, and an additional 60 
are currently in training. More needs to be done to fulfill the 
requirement for 600 officers to operate the prison system. A prison in 
Istok that can hold 520 inmates re-opened on June 1 and will expand 
significantly the system's current incarceration capacity. We are 
working with our allies to shore up the system in the interim, and 
provide the resources necessary to create and sustain a functioning 
penal system.
    The municipal elections, which will be held this fall, will further 
focus the involvement of local leaders in municipal administrative 
structures by providing a public mandate to guide their participation. 
Organization for the elections is well underway.
    The Serbs who remain in Kosovo feel insecure and are reluctant 
partners in steps to establish democracy in Kosovo. The OSCE and UNMIK 
are engaging with the Serb community to stress the importance of civil 
registration, but thus far few Serbs are registering. We are also 
working on a pilot project to return Serbs to Kosovo, and are 
investigating possibilities for enhanced assistance to existing Serb 
communities.
    Mitrovica and southern Serbia continue to be potential flashpoints. 
Ethnic Albanian insurgents in the Presevo region had pledged to reject 
the use of violence and seek a political solution, but we know that 
their insurgency continues. We continue to warn extremists on both 
sides of the border that provocation and violence will not be 
tolerated. Additionally, KFOR and UNMIK are monitoring the situation 
carefully.
    KFOR and UNMIK have developed a set of measures to address the 
issue of Mitrovica. The U.N. has appointed a strong administrator for 
the region, American retired General William Nash. KFOR and UNMIK have 
returned more than 140 displaced Albanians to homes north of the Ibar 
River and KFOR-controlled ``Zones of Confidence'' have been established 
in problem areas around two bridges and one neighborhood. Two 
international judges and an international prosecutor have been 
appointed in Mitrovica. Additionally, UNMIK is engaging an 
international mining consortium to begin preliminary work in elements 
of the Trepce mining complex, previously the largest economic 
enterprise in Kosovo.
    The violence toward minorities and the atmosphere of intolerance in 
Kosovo is of serious concern. The overall reduction in violence over 
the past year is heartening and is a tribute to KFOR and UNMIK police 
efforts. However, recent violence against Serbs and Roma, the isolation 
of those communities and the appearance of provocative ``vigilante 
journalism'' undermines the international effort in Kosovo and sets 
back the process of creating a tolerant democratic society there. We 
believe that those who aspire to lead in Kosovo should denounce these 
developments as UNMIK and KFOR take measures to improve security for 
minorities.
    We are keenly aware of the possibility that demobilized members of 
the former KLA, including those who have joined the KPC, may act 
inappropriately. KFOR retains high standards for participation in the 
organization and enforces a zero tolerance policy regarding illicit 
activities by members of the KPC. In March, KFOR and UNMIK put into 
force the KPC Disciplinary Code (DC), which constitutes the formal 
mechanism for enforcement of the rules for compliance and disciplinary 
action against offenders. The DC applies to all KPC members and 
provides the legal basis for the commander of the KPC to take 
disciplinary action against non-compliant members. UNMIK and KFOF also 
recently signed the Compliance Enforcement Framework Document, which 
assigns responsibility for investigating criminal actions to UNMIK, 
administrative discipline to KPC, and compliance violations to KFOR. 
Thus far, KFOR has initiated 95 individual investigations, expelled 4, 
and suspended 9 KPC members.
    One regional challenge is critical to Kosovo. The continued 
retention of power by the Milosevic regime in Belgrade obstructs 
progress in Kosovo as it does elsewhere in the region. The Milosevic 
factor confuses engagement with Kosovar Serbs and prevents any serious 
discussion of long-term options with the Kosovar Albanians. The sooner 
the Milosevic regime is replaced by democratic alternatives, the sooner 
the region can begin to heal. The recent crackdown on independent media 
and students shows that the regime is fearful, brittle, and in a 
downward spiral. While no one can predict when a change in Belgrade 
will occur, we continue to oppose those individuals and actions which 
reinforce Milosevic, and we support those which promote democratic 
alternatives.

                        PROJECTIONS FOR YEAR TWO

    Our focus for the next several months will be on establishing 
democracy in Kosovo, not on defining its final status. The first step 
is to overcome the practical challenges I previously described. The 
second step is to establish the provisional institutions for democratic 
self-government under the international supervision of UNMIK. Democracy 
should be well-established in Kosovo before we can resolve the issue of 
final status. Over the past few months, with the Rambouillet draft 
constitution as a point of departure, we have begun building consensus 
with key allies on the form that the provisional self-government will 
take, and its relationship to UNMIK and KFOR. These discussions will 
also include consultations with Kosovars.
    UNSCR 1244 establishes the foundation for this undefined interim 
period. We believe the resolution requires no modification and it may 
only be withdrawn upon the unanimous consent of the U.N. Security 
Council.

                             BURDENSHARING

    We have been clear and consistent that Europe must shoulder the 
lion's share of the resource burden in Kosovo. Our NATO Allies, 
partners and other countries do contribute the large majority of KFOR's 
forces. Under normal conditions, the U.S. fields about 5,500 of the 
45,000 troops in Kosovo, plus 800 support troops in Macedonia. Thus, 
the U.S. contribution stays close to 14% of the total KFOR deployment. 
In the general category of revitalization and reconstruction for 
Kosovo, the total contribution for CY2000 from all donors is about $1.1 
billion. At $168 million, the U.S. contribution for 2000 for Kosovo's 
revitalization and reconstruction is about 14.6%. We understand and 
agree with the Senate's concerns about adequate burdensharing in 
Kosovo, and are vigilant in ensuring that our European allies honor 
their commitments. At the same time, the United States needs to fulfill 
its obligations. With the European's providing the lion's share, the 
U.S. contribution is affordable.
    Mr. Chairman, for months now several ideas have been proposed in 
the Congress that limit U.S. participation in Kosovo or link our 
participation to levels of resource support provided by Europe. The 
message from the Congress on burdensharing has been received loud and 
clear on both sides of the Atlantic. We continue to believe that 
limiting the flexibility of this Administration and the next is 
unnecessary and unwise. Arbitrary percentages to our participation 
risks reciprocal actions in the future, limits our policy options, and 
degrades our leadership in key security institutions.

                        U.S. INTEREST IN KOSOVO

    The engagement of the United States and our allies in Kosovo has 
been a success. We stopped the killing, restored regional stability, 
and are beginning to reinvigorate the society and bring democracy to 
Kosovo. Our continuing engagement in Kosovo relates directly to our 
national security interests. First, our security is served by 
leadership and participation in European security institutions like 
NATO and OSCE. We cannot expect these institutions to support our 
interests if we do not participate in important European security 
issues.
    Second, we know from history that a stable Europe is vital to 
American security, and that Europe is not stable if its southeastern 
corner is in turmoil. In the past four years, the U.S. and our allies 
have successfully contained, then subdued, conflicts in Croatia, 
Bosnia, and Kosovo as the former Yugoslavia broke apart. But the area's 
stability remains at risk from the Milosevic regime and the fragility 
of states recovering from conflict. The international security presence 
is critical to not only creating a secure environment in Kosovo, but 
for sustaining the peace and establishing the conditions for long-term 
stability in the region that will allow robust political, economic, and 
reconstruction programs backed by sufficient resources to make a 
difference. The costs have not been excessive given the outcome. We 
must remain engaged with our allies.

    Senator Smith. Mr. Ambassador, from the beginning of our 
involvement in Kosovo I have supported the administration both 
in the decision to engage and in defending it recently on a 
move in the Senate to withdraw.
    But I have also said from the beginning that I do not 
believe our objective is realistic. The objective of the 
international community is autonomy within Yugoslavia for 
Kosovo. The problem I have is that nobody on the ground seems 
to want that. The Serbs want Kosovo on their terms, and the 
Albanians want independence of the Serbs. Can you allay my 
ongoing skepticism of the achievability of our stated goal?
    Ambassador Pardew. Mr. Chairman, the difficulty in 
discussing long-term status of Kosovo is compounded by the 
Milosevic problem in Belgrade. It is impossible to have a 
meaningful discussion with Kosovars over the long-term status 
with Milosevic in power in Belgrade, and so close to the tragic 
events that have occurred in Kosovo.
    Senator Smith. Does it substantially abate if Milosevic is 
gone? Do you think the Albanians will want to be----
    Ambassador Pardew. Not immediately, I do not, but we 
continue to believe that some appropriate relationship with 
Serbia yet to be defined is better than independence.
    We have not supported independence, but we do insist that 
the final status of Kosovo must be acceptable to the people of 
Kosovo. Right now, we have set that issue aside while we work 
to achieve democratic institutions, a market economy, and to 
bring Western democratic values to the area. It is just 
impossible at this point in time, sir, to have a serious 
discussion with them on the status question.
    Senator Smith. But the consequence of sticking to this 
hybrid end game is, we are there for an indeterminate amount of 
time, nation-building on our terms and not their terms. Am I 
wrong in that fear?
    Ambassador Pardew. We certainly cannot put a timeframe on 
our presence there. Again, we believe that the area is 
important, regional stability is important, and we have to take 
the necessary measures to ensure regional stability. However, 
we learned from Bosnia not to set specific time lines on when 
we can leave.
    I can only say our focus right now is on defining what 
substantial autonomy means in this interim period. We are doing 
everything we can to give them effective governance under the 
UNMIK structure for this interim period and set aside the long-
term status.
    Senator Smith. What I think you have implied, in order for 
that ever to be achievable we have got to get rid of Mr. 
Milosevic. What is being done on that score?
    Ambassador Pardew. We are working with our allies in Europe 
in a range of measures to undermine the Milosevic regime and to 
promote those forces that support democracy. We are pursuing a 
number of initiatives. We are supporting independent media in 
the FRY. We are working with the Serb opposition. We are 
promoting the democracy in Bosnia and in Montenegro and in 
Kosovo and in the surrounding area. We have a very serious 
sanctions regime which we are tightening with our European 
allies right now.
    So there are a whole range of very serious measures we are 
using, but ultimately, Mr. Chairman, whether Milosevic goes or 
stays is an issue for Serbs. The Serbian people have to decide 
when he goes. We hope that that will happen sooner rather than 
later.
    Senator Smith. So if he stays, that means we stay as well?
    Ambassador Pardew. It makes it much more difficult to 
leave.
    Senator Smith. It seems to me the international community 
ought to go get him and take him to The Hague, and things would 
get better a lot quicker.
    Can you speak to Russia's involvement? Are they our partner 
there, or our opponent there? They are hosting a Serb war 
criminal during Mr. Putin's inauguration, giving him a nice 
week of good food and camaraderie. What role are they taking on 
the ground?
    Ambassador Pardew. This whole Serbian issue and the breakup 
of Yugoslavia has been a very difficult problem for the 
Russians. They have their own domestic political factors to 
consider, and quite frankly, their actions have sometimes been 
inconsistent. For example, Foreign Minister Ivanov apologized 
publicly for the visit to Moscow by the person under indictment 
by the War Crimes Tribunal.
    In other cases the Russians have been extremely helpful. 
They were helpful in the negotiation of the end of the air 
campaign. We are working with them expectively in the contact 
group, so the relationship with Russia over Kosovo has varied 
from time to time.
    Their forces, if I could go on, have been responsible 
members of the alliance in Kosovo and have, in fact, acted 
professionally. So in many ways Russia has been a plus, but 
there have been those instances in which they have made things 
a little more difficult for us, and they have made mistakes 
which they have openly admitted.
    Senator Smith. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. Ambassador Pardew, 
you have described, I think accurately and very thoughtfully, 
the status of our forces in Kosovo, and the job they have to 
do, and that is a very difficult one. Chairman Smith has 
surveyed the larger picture and your role as advisor to the 
President and Secretary for democracy in the Balkans. You have 
taken a larger view even as you try to help bring democracy to 
2 million people in Kosovo.
    I would just underline the thought that the debate that we 
had the other day on the Byrd-Warner amendment was especially 
important because it drew the Senate's attention for the first 
time to the responsibilities of the United States in Europe. We 
all understand that role in a way, and Chairman Smith's 
underlining of the D-day anniversary is significant. You have 
talked about this as well.
    We are in Europe because we want to be there and because 
Europeans want us to be there. The German Foreign Minister and 
the French Foreign Minister have come through here, have met 
with us and have emphasized that our presence in Europe has 
made all the difference in terms of peace in Europe for the 
past 60-years--all because the United States is there, and we 
are there in a very large way as a leader of NATO.
    Now, the thing that was upsetting about the debate the 
other day was that, because of the irritation of many Members 
of the Senate who reflect the public as a whole, we might cut 
and run under very dubious circumstances. They feel this way 
out of irritation or weariness, over a lack of foresight in 
Kosovo, a lack of comprehensive plans now, or the lack of an 
end game plan.
    For each of us who have been involved in these discussions, 
whether it be the White House or the State Department, there 
was not a consensus in the Senate or the House as to what had 
occurred. The votes were always very problematic, and on 
occasion, as you recall, even after we had been involved in 
bombing for several weeks, there was a tie vote in the House on 
whether we should be bombing at all.
    So, in a way democracy works, and we finally confronted in 
this very close vote the fact that we have a responsibility, 
and it is a very tough one, but it is an ongoing 
responsibility.
    This was a close call, and the administration understands 
that, and, in fairness, Secretary Cohen and Secretary Albright 
and perhaps yourself and others were very busy, as you needed 
to be, to explain how drastic circumstances might be.
    Now, having said that, I am concerned that there does not 
appear to be in our administration, quite apart from NATO or 
the United Nations, an overall strategy. There are pieces of 
this, and sometimes persons like yourself are able to be an 
interlocutor and relate them.
    For instance, the Southeast European Assistance Plan is 
extremely important. It is important for those in that area, 
for the United States, for NATO, Bulgaria, Romania and other 
countries because the problems in Serbia have isolated them in 
terms of trade and development even as they wish to become a 
part of NATO and wish to become affiliated with us. There has 
been almost no debate here and very little word about our 
participation, although it is a European situation primarily.
    Likewise how are Albania and Macedonia to be supported 
given Serbia in the middle of all this, quite apart from the 
Kosovo situation or from Montenegro? From time to time we edge 
up to what we should be doing in Montenegro.
    Not all of it is covert, but it sometimes takes on that 
flavor. After all, Kosovo is a part of Serbia and, therefore, 
it is unseemly to get into too much discussion about the whole 
place which might be stabilized this summer, and we may have a 
big NATO problem again for which we're not very well prepared.
    And I don't see, as the chairman has pointed out, an end 
game at all with regard to Kosovo. Now, you have to answer 
these questions diplomatically because our European friends are 
very sensitive on the issue of independence and autonomy, and 
therefore public testimony by you or anybody else is likely to 
be difficult.
    But the fact is that, as I rephrase the steps of how we got 
involved to begin with, we were involved at Rambouillet.
    We felt a responsibility to make that conference credible. 
Whoever made the estimate that the bombing raids would change 
the opinion of Milosevic may or may not have been correct. 
Whether we were prepared for that war is beside the point, 
because it is over, but the fact is there are lots of questions 
about Rambouillet, our negotiating position, and how we came 
into such a war to begin with, and all the ramifications that 
follow it.
    Now, I think at some point either your administration or 
the next one has to put in context what is going to happen, and 
we have to take leadership in the United States and in NATO to 
make it happen.
    As it stands, it seems to me we are mostly reactive and 
defensive. Some say that 15 percent of the people there doing 
peacekeeping seems like a fair share, but we are skeptical 
whether the Europeans are doing their share. It is a very small 
area anyway and very tough for any of these people to make a 
difference in southeastern Europe, its economy, and lack of 
overall strategy.
    What can you inform us about any overall strategic plan, or 
a way in which the administration might explain or take 
leadership in bringing some plan so that you then come to the 
Congress and say this is the way it is. It may be expensive, 
but these are things we have got to do, and they involve all 
these countries, and they involve money and investment and the 
rest.
    This is preferable to a piecemeal approach to Kosovo 
appearing, in ways suggesting that we might do something more 
or we might not, or defending the amount that we are doing. I 
think ultimately you would have to admit this is an interim 
stop-gap affair or a finger in the dike, and hope that some 
good things might happen, like Milosevic leaving, or other 
countries stepping to the fore.
    Can you give us any grand idea about all of this?
    Ambassador Pardew. I do not know how grand it will be 
Senator, but I will give it my best shot.
    First of all, I think we appear sometimes to be reactive, 
because we are in some ways responding to events we do not 
control. I mean, we simply cannot predict what Milosevic is 
going to do tactically. This all started in the early nineties 
as Yugoslavia came apart, and we were faced with confrontations 
between these new countries. Bosnia was a particular difficult 
example.
    We tried long ago to deter Milosevic from taking action in 
Kosovo but we were not successful, and we do not know for sure 
what he might do next. But you are exactly right in that it is 
very difficult to deal with regional issues because of Serbia's 
current leadership, its location and the size of its 
population.
    I would say that our strategy is governed by our interest 
in regional stability. We wish to take a regional approach to 
problems, not just a piece by piece approach.
    Part of the regional strategy is the Stability Pact and 
what we are trying to do to integrate countries of the region 
into the European economic system and the European political 
institutions. We seek to bring these countries into NATO, OSCE, 
EU, and other regional institutions, and to have them work 
together toward common economic structures and goals. The 
Stability Pact is a large part of that effort.
    Another element of our strategy is the replacement of the 
regime in Serbia, because such a change is so critical to the 
region, and our goal of building democracies in these 
countries. We have made great headway in Croatia. We have not 
had as much success in Bosnia as we would have liked, but 
things have gotten better there. We are working very hard in 
Kosovo to improve the situation. Overall, I would characterize 
our strategy as based on regional stability and regional 
cooperation. Then you go into the individual countries and what 
we are doing there.
    Senator Lugar. Thank you.
    Senator Smith. Thank you, Mr. Ambassador. I think you can 
infer from both of our comments and questions that our ability 
to keep support in the U.S. Senate for the current end game is 
not indefinite, and the sooner we get on to realizing that we 
picked a side on the side of the Kosovar Albanians the better 
off we will be, because that will lead us to a goal that is 
achievable, and that is their independence, and if the 
Europeans do not want that, I believe they will find that they 
are the ones enforcing something other than that.
    We thank you, sir.
    Ambassador Pardew. Thank you.
    Senator Smith. We invite now our next panel, Ambassador 
Abramowitz, Dr. Williams, and Mr. Bugajski.
    Ambassador Abramowitz, we will start with you, sir. Thanks 
for being here.

  STATEMENT OF HON. MORTON I. ABRAMOWITZ, BOARD OF TRUSTEES, 
 INTERNATIONAL CRISIS GROUP, AND FORMER ASSISTANT SECRETARY OF 
      STATE FOR INTELLIGENCE AND RESEARCH, WASHINGTON, DC

    Ambassador Abramowitz. Thank you, Mr. Chairman. I very much 
appreciate the chance to discuss Kosovo with you. Let me just 
say that there have been very powerful voices on this committee 
over the past decade saying some very important things, and it 
is an honor for me to be with some of them here today. Thank 
you very much.
    Kosovo is a subject of great political and moral 
importance. For all the ills of Western policy in the Balkans 
the past year, the useless rhetoric--past decade, I should 
say--the useless rhetoric, the evasions of reality, the half-
way measures, in the end Kosovo represented an extraordinary 
allied motivation effort and accomplishment.
    Kosovo, of course, is not over. It remains a poor, 
disorganized society with a long-term security problem. It is 
essential for the people of Kosovo, peace in the Balkans, and 
to the cohesion and the values of the alliance that our efforts 
to create a stable and reasonable democratic Kosovo be 
successful. That will require continuing personnel, military 
and civilian resources of sizable magnitude, determination, and 
some political imagination.
    There is no easy exit strategy, that wonderful phrase which 
is often used to lead democratic countries to less decisive 
action or no action at all, and ultimately produces greater 
cost and greater suffering. How long Western forces have to 
stay, and the magnitude of the resources needed, will be 
heavily dependant by what we and our allies do in Kosovo in a 
wider regional setting.
    I thought it might be useful to raise at least five 
important questions about our efforts in Kosovo, and I will try 
to be brief. The first and most obvious is where are we, and 
what has been accomplished?
    Mr. Chairman, you have already answered that very well. 
Your description at the beginning of the session I think was 
dead on, and I am not going to repeat essentially what you had 
said. I would like to just close that part with a little 
paragraph which I have written which says, it seems inevitable 
that after a war the resources and attention of concerned 
nations to post-war reconstruction fall far behind what is 
needed, indeed, in some cases imperiling the results of the 
war.
    The U.N. administration has been burdened with a deficiency 
of all sorts of resources, as well as a mandate to keep Kosovo 
as part of the Federal Republic of Yugoslavia which flies in 
the face of reality. However valiant their effort, it is clear 
that UNMIK has neither the resources, time, nor ability to 
reshape Kosovo society, but UNMIK, with the help of KFOR, can 
establish a reasonably secure political environment, encourage 
responsible political parties, promote movement or democratic 
practices, and institute an elective process.
    My second question is, do Serbs still have a place in 
Kosovo? In Kosovo our ideals collide with popular fears and 
profound antagonisms. It is not a situation that can be changed 
overnight. Serbs have been leaving Kosovo for the past 20 
years, as Albanian predominance in the province increased. The 
outcome of the war sped further departures. Probably half of 
pre-war Kosovo's 200,000 Serbs, not all of whom were long-term 
residents, fled partially because of Albanian violence or 
provocation, but in part because they also feared to live under 
Albanian rule, or lost their jobs when Serbian administration 
ceased.
    Despite their inhospitable reception in Serbia, and the 
presence of KFOR in Kosovo, it is uncertain whether many Kosovo 
Serbs want to return to Kosovo without jobs to go to, which 
have largely been taken over by Albanians, and without the 
restoration of Serbian authority. The latter is not likely for 
a long time to come, if ever. To encourage Serbs remaining in 
Kosovo to stay and those in Serbia to return is no easy task, 
and from the perspective of many Albanians in Kosovo the fewer 
Serbs in Kosovo the better, and the less likely in the future 
that Serbia would attempt to take back the area.
    The issue of Serb returns is a tricky one, in part because 
Belgrade is deeply involved in the Serb presence in Kosovo. 
Many Serbs also came late to Kosovo, as part of Belgrade's 
apparatus. In part, this issue of returns is also intimately 
related to the establishment of a serious Kosovo entity, one 
with a real court system, a better rule of law, and adequate 
policing, in short, a functioning society where there is 
security and predictability.
    That does not yet exist in Kosovo, and encouraging Serbs to 
return at this point is questionable, since they will almost 
certainly end up in enclaves controlled by Belgrade, but while 
a stable environment is necessary, it is probably not 
sufficient. Getting Serbs to return will also require 
continuing Western pressure, lots of material support and 
military and police protection for some uncertain time to come.
    This means: No. 1, that Serbs must somehow be assured 
security, democratic rights, power-sharing in their 
communities, and political participation outside their 
communities, however difficult that will be in Albanian areas.
    No. 2, that Serbs in Kosovo will have to accept that they 
will have to live in a single Kosovo not ruled by Belgrade. 
Right now, that does not seem to be the case for a large number 
of them.
    No. 3, that Albanian violence must be controlled, and 
Albanian leaders need to understand that they will ultimately 
have to accept the return of those Serbs wishing to return to 
Kosovo and make that work as well as possible if they are to 
sustain the international community support for majority rule 
in Kosovo.
    Given the difficulties and uncertainties involved, one 
practical strategy does not answer the problem, but one 
practical strategy might be to focus initial returns on the 
much smaller number of displaced Roma gypsies, who invariably 
get the short end of the stick. If their returns can be 
successfully managed, it could offer some confidence to move 
ahead with a program to return Serbs to Kosovo.
    My third question, one that you have alluded to and Senator 
Lugar has alluded to, is the uncertainty of the future status 
of Kosovo inhibiting the political and economic development of 
Kosovo. The answer to this is almost certainly yes, although it 
is hard to quantify.
    Economic and political decisions are made because the only 
international mandate is U.N. Security Council Resolution 1244, 
which says that Kosovo's part of the Federal Republic of 
Yugoslavia [FRY], and that is used in many quarters to 
contribute to delay in creating meaningful institutions which 
are run by the people of Kosovo. There seems to be a continuing 
struggle between UNMIK and Pristina and the United Nations in 
New York over the implementation of a mandate and the structure 
and timing of self rule.
    Russia and China are against any change in the 
international status of Kosovo. The allies continue to fear 
that a too rapid movement toward Kosovo self-rule and any 
enunciation of Kosovo independence as a goal will imperil the 
viability of Macedonia and stir up a major international 
dispute.
    They all apparently believe that the issue of Kosovo's 
status could be better dealt with once Milosevic leaves the 
scene. That is, there is a greater possibility of keeping 
Kosovo and Serbia together in some way if Serbia has a more 
democratic government, or conversely, that a more democratic 
government in Serbia is more likely to accept the succession of 
Kosovo, or at least a republic status for Kosovo in the FRY.
    One problem with this approach is that no one is smart 
enough to figure out when Milosevic will lose power. However 
significant the weaknesses of his regime, his departure could 
be delayed a long time. We have seen that with Castro, we have 
seen that with Saddam Hussein. It could be delayed a long time, 
creating tension and instability in Kosovo should power and 
responsibility continue to be denied the Albanians.
    Moreover, it is not at all clear that a post-Milosevic 
Government will have the desire or the political backing to 
accept a change in Kosovo's status. One could reasonably argue 
that it is better for the international community and the Serb 
opposition to change Kosovo's status while Milosevic is in 
charge.
    Another problem is our use of so-called Federal Republic of 
Yugoslavia, the FRY. I think we all know why the term was used 
in 1244 and not Serbia. The sad fact is, the FRY is the family 
enterprise of Mr. Milosevic that serves to give his rule some 
legal patina. Every republic has gotten out, and the last 
remaining one, Montenegro, also wants out, much to our 
discomfiture.
    Resurrection of the FRY is a highly dubious enterprise even 
in a post-Milosevic period. It is, however, at this time not 
possible politically in the international community, whether it 
is desirable or not, easier now rather than later, to change 
the status of court in Kosovo by the international community, 
and that, I believe, is producing a drift in Kosovo and in 
allied determination.
    The people in Kosovo still do not know what local elections 
which are to be held in the autumn mean, and there seems to be, 
at least among some allies, a sense that Kosovo is really part 
of Serbia. It is important for the United States to make its 
views crystal clear to the people of Kosovo and to the world at 
large that while the status of Kosovo still has to be 
determined, Serbian rule will not return to Kosovo and 
independence is a possible goal once certain conditions about 
the nature of independent Kosovo are met, including a 
demonstrated commitment to minority rights, and an adherence to 
internationally recognized borders.
    Credible elections will also be needed to establish the 
legitimacy of Kosovo Governments, and the growing 
responsibility of those voted into office. In short, we either 
start to set the rules for a transition to what may be Kosovo 
independence, or we allow ourselves to be hostage to events in 
Kosovo and the region.
    My fourth question: How do Serbia and Kosovo live with each 
other in the long run? If Western forces are to ever be 
withdrawn from Kosovo, clearly Serbia and Kosovo must be able 
to work out some sort of stable relationship. Whether this will 
be possible, and when, I am not smart enough to predict.
    The history of the two communities has obviously been a 
violent one, but even if that objective is difficult to attain, 
it is important not to lose sight of it. I think we can say at 
least a few things about the longer term. First, the 
relationship cannot improve while Milosevic remains in power. 
He is still trying to preserve the potentiality for Serb rule 
in Kosovo, and to undermine UNMIK authority. We cannot do 
business with him, and a different type of Serbia will be 
needed.
    Second, even if a Serbian Abe Lincoln took charge and 
offered malice toward none, not one Albanian would support any 
serious political tie to Belgrade. Nevertheless, the Albanian 
leaders of Kosovo must realize that, while independence is 
their goal, they will have to coexist with next door ultimately 
a much stronger Serbia. They must examine the government that 
succeeds Milosevic in that light, and how they might proceed 
constructively with its leaders. They must also recognize that 
a continuing Western military presence in Kosovo could be 
challenged by the domestic considerations and domestic politics 
in allied nations.
    Third, and this is, I think, in the end ultimately the most 
important thing, much will depend on Europe and what it does in 
Kosovo, in Serbia when it is free of Milosevic, and in the 
broad Balkan region. The prospects for stability and ultimate 
reconciliation in the Balkans depend in great part both on 
economic growth in all the countries, but also on their 
respective relationships with Europe.
    It will be only possible to remove Western troops when both 
Kosovo and Serbia are bound to European institutions in some 
serious fashion. Whether Europe can rise to the occasion and 
produce a long term integrative process remains to be seen. 
Europe has plenty of things on its mind. But I believe that the 
EU increasingly recognizes that connection, and Mr. Solana and 
Mr. Patten have added enormous energy and urgency to the EU 
effort.
    Finally, what is the role of the United States in shaping 
the future of Kosovo? The United States was the heart of the 
alliance war effort, but long term, however, it is the EU, as I 
noted above, which has a central role in ultimately stabilizing 
the former Yugoslavia, but it can take a long while to get to 
the long term, and the United States remains essential for 
security and for political purposes.
    The United States supplies only 15 percent of KFOR, but the 
continued presence of a significant American force is needed to 
provide the assurance to the Kosovo Albanians that Serb forces 
will not simply be able one day to walk in and resume control. 
The presence of American forces conveys a similar type message 
to any Serbian Government. Certainly, until more progress is 
made in creating new, self-sustaining political institutions in 
Kosovo, and we see the impact of a post-Milosevic Government in 
Belgrade, serious American forces will be required.
    While the bulk of the military presence will have to come 
from European countries, I think it would be a mistake to 
simply consider the division of forces a burden-sharing 
problem. The nature and role of American forces are also 
important, whether U.S. military efforts are narrowly confined 
or significantly robust, and determined to get the job done.
    I note that Kosovo Serbs have complained a few days ago 
that British forces do a better job of providing protection to 
Serbs than American ones. That may be unfair. I do not know. 
But I think the way our forces are being used in Kosovo is 
worth serious review.
    There is, moreover, an important political purpose served 
by the continuing presence of U.S. forces in Kosovo, namely, a 
stronger voice in determining allied strategy in the Balkans, 
where we have a major investment in interests and values to 
protect.
    The United States, to its credit, is an important catalytic 
government, particularly in the Balkans. It needs to remain 
involved in working to avoid backsliding so that we do not fall 
into repeating our past experience in Kosovo, and that we do 
what is necessary to ensure that the alliance maintains a 
sufficiently strong posture in Kosovo and indeed the whole of 
the former Yugoslavia, so that we will be successful, rather 
than doing just enough to fail or create uncertainty and 
further instability, and in this regard I must express some 
concern as to our involvement in the nonmilitary aspects of the 
Kosovo problem.
    An Albanian friend has commented that the United States has 
won the war and seems to have disappeared from Kosovo. In 
helping make things happen in Kosovo, in the vital tasks, 
particularly building a civil society, the U.S. Government 
seems to me to be largely absent. I am sure you will get a 
catalogue, and we have already heard a catalogue of all the 
U.S. Government is doing in Kosovo if you ask the question, but 
I believe it is another subject worth seriously looking at.
    Let me close by saying that in western Europe in the 1940's 
our exit strategy in peace and war was to be successful. If you 
need an exit strategy for Kosovo, I suggest that is still a 
fitting one.
    [The prepared statement of Ambassador Abramowitz follows:]

            Prepared Statement of Hon. Morton I. Abramowitz

    Mr. Chairman, Members of the Committee:
    I appreciate the invitation to discuss Kosovo with you. It is a 
subject of great political and moral importance. For all the ills of 
Western policy in the Balkans the past decade--the useless rhetoric, 
the evasions of reality, the half-way measures--in the end Kosovo 
represented an extraordinary allied motivation, effort, and 
accomplishment. The saga is, of course, not over; Kosovo remains a poor 
disorganized society with a long-term security problem. It is essential 
to the people of Kosovo, to peace in the Balkans, and to the cohesion 
and values of the alliance that our efforts to create a stable and 
reasonable democratic Kosovo be successful. That will require 
continuing personnel--military and civilian--resources of sizable 
magnitude, determination, and some political imagination. There is no 
easy exit strategy, that wonderful Washington phrase which often is 
used to lead democratic countries to less decisive action or no action 
at all and ultimately produces greater cost and suffering. How long 
Western forces have to stay and the magnitude of the resources needed, 
will be influenced by what we and our allies do in Kosovo and its wider 
regional setting.
    I thought it might be most useful to raise at least five important 
questions surrounding our efforts in Kosovo that need to be aired, and 
to give my answers. I will try to be direct and brief.

1. The most obvious question is where are we: what has and has not been 
        achieved in not quite a year of U.N. rule?

    Views diverge, often radically--some see the glass half full, some 
see it mostly empty. In the media pessimism usually predominates, with 
the overwhelming emphasis on continuing violence against Serbs. Much 
depends on when you entered the Kosovo problem. One needs to be 
reminded of Kosovo's tortured post-1989 history: the repression, the 
dislocation of people, the ethnic animosities, and the destruction of 
property in evaluating developments under U.N. rule. Here is how I see 
it, and I rely on my own observations and particularly the work in 
Kosovo of the International Crisis Group, of which I am a board member:

  <bullet> The vast bulk of Kosovo's people are now better off, 
        livelier, and more hopeful than before the war. That is, of 
        course, because the Serbian ruling apparatus with its hallmark 
        of fear and repression is gone. Incidents of violence against 
        Serbs and other minorities continue. The present security 
        climate is heavily dependent on a significant Western military 
        and police presence.

  <bullet> Whatever the suspicions and accusations--true or false--
        hurled at the KLA and some of its leaders, the organization has 
        been significantly demilitarized. Whether it can turn itself 
        into a popular and cohesive political force not tainted by 
        intimidation, corruption, violence, or fractiousness remains to 
        be seen.

  <bullet> Albanians got through a hard winter and moved quickly, 
        mostly on their own, to reconstruct homes, establish small and 
        medium sized private business, and resume farm production.

  <bullet> Basic public services have begun to function after a slow 
        UNMIK start--garbage collection, traffic, etc., are all 
        improving and ninety percent of the children are back in 
        school.

  <bullet> A process has begun to hold local elections in the fall and 
        to give some political power to the people of Kosovo;

However, there are major areas where little has been done or even can 
be done in the short-term:

  <bullet> The communities are more ethnically separated than ever. 
        Kosovo's remaining Serbs live in enclaves under permanent KFOR 
        guard and are mostly supplied by Belgrade. Other minorities 
        remain at risk.

  <bullet> Kosovo is still divided. Albanians have been entirely driven 
        from territories north of the city of Mitrovica--this area 
        functions de facto as part of Serbia. Indeed, Belgrade's hand 
        is still felt throughout Kosovo.

  <bullet> Major infrastructure has not been repaired or reconstructed, 
        most notably utilities.

  <bullet> Very little Kosovo administration has been established. 
        There is U.N. rule but not a real government and Albanian 
        administration is noted mostly by its absence. Kosovo lacks the 
        rule of law and a serious judiciary. Most publicized has been 
        the inability of the international community to provide an 
        adequate police presence; less than half those originally 
        planned have arrived.

    It seems inevitable that after a war the resources and attention of 
concerned nations to post war reconstruction fall far behind what is 
needed, indeed in some cases imperiling the results of the war. The 
U.N. administration has been burdened with a deficiency of all sorts of 
resources as well as by a mandate to keep Kosovo as part of the Federal 
Republic of Yugoslavia (FRY), which flies in the face of reality. 
However valiant their efforts, it is clear that UNMIK has neither the 
resources, time, nor ability to reshape Kosovo society. But UNMIK can 
establish a reasonably secure political environment, encourage 
responsible political parties, promote movement toward democratic 
practices, and institute an elective process.

2. Do Serbs still have a place in Kosovo?

    In Kosovo our ideals collide with popular fears and profound 
antagonisms. It is not a situation that can be changed overnight.
    Serbs have been leaving Kosovo for the past twenty years as 
Albanian predominance in the province increased. The outcome of the war 
sped further departures. Probably half of pre-war Kosovo's two hundred 
thousand Serbs (not all long term residents) fled, partly because of 
Albanian violence or provocation but in part also because they feared 
to live under Albanian rule or had lost their jobs when Serbian 
administration ceased.
    Despite their inhospitable reception in Serbia and the presence of 
KFOR in Kosovo, it is questionable whether many Kosovo Serbs want to 
return to Kosovo without jobs to go to (which have largely been taken 
over by Albanians) and without the restoration of Serbian authority. 
The latter is not likely for a long time to come, if ever. To encourage 
Serbs remaining in Kosovo to stay and those in Serbia to return is no 
easy task. From the perspective of many Albanians the fewer Serbs in 
Kosovo the better, and the less likely in the future that Serbia would 
attempt to take back the area.
    This issue of Serb returns is a tricky one in part because Belgrade 
is deeply involved in the Serb presence in Kosovo. Many Serbs also came 
late to Kosovo as part of Belgrade's apparatus. In part this issue of 
returns is also intimately related to the establishment of a serious 
Kosovo entity: one with a real court system, a better rule of law, and 
adequate policing--in short a functioning society where there is 
security and predictability. That does not yet exist in Kosovo and 
encouraging Serbs to return at this point is questionable since they 
will almost certainly end up in enclaves controlled by Belgrade. But 
while a stable environment is necessary it is probably not sufficient. 
Getting Serbs to return will also require continuing Western pressure, 
lots of material support, and military and police protection for some 
time to come. This means:

  <bullet> that Serbs must somehow be assured security, democratic 
        rights, power sharing in their communities, and political 
        participation outside their communities, however difficult that 
        will be in Albanian areas;

  <bullet> that Serbs in Kosovo will have to accept that they will have 
        to live in a single Kosovo not ruled by Belgrade. Right now 
        that does not seem to be the case for at least a large number 
        of them; and

  <bullet> that Albanian violence must be controlled and Albanian 
        leaders need to understand that they will ultimately have to 
        accept the return of Serbs to Kosovo and make that work as well 
        as possible if they are to sustain the international 
        community's support for majority rule in Kosovo.

    Given the difficulties and uncertainties involved, one strategy 
might be to focus returns turns initially on the much smaller number 
displaced of Roma, who invariably get the least attention. If their 
returns can be successfully managed it could offer some confidence to 
move ahead with in a program to return Serbs to Kosovo.

3. Is the uncertainty of the future status of Kosovo inhibiting the 
        political and economic development of the country?

    The answer to this is almost certainly yes, although it is hard to 
quantify. Economic and political decisions are delayed because the only 
international mandate is U.N. Security Council Resolution 1244, which 
says that Kosovo is part of the FRY and that is used in many quarters 
to contribute to the delay in creating meaningful institutions run by 
the people of Kosovo. There seems to be a continuing struggle between 
UNMIK in Pristina and the U.N. in New York over the implementation of 
the mandate and the structure and timing of self-rule.
    Russia and China are dead set against any change in the 
international status of Kosovo. The allies are divided but most 
continue to fear that too rapid movement toward Kosovo self-rule and 
any enunciation of Kosovo independence as a goal will imperil the 
viability of Macedonia (although any declaration of Montenegro 
independence from the FRY would throw even greater doubt on allied 
perspectives of the Kosovo issue) and stir up an international dispute. 
They all apparently believe that the issue of Kosovo's status could be 
better dealt with once Milosevic leaves the scene, that is, there is a 
greater prospect of keeping Kosovo and Serbia together in some way if 
Serbia has a more democratic government, or conversely, that a more 
democratic Serbian government is more likely to accept the secession of 
Kosovo or at least a republic status for Kosovo in the FRY.
    One problem with this approach is that no one is smart enough to 
figure out when Milosevic will lose power. However significant the 
weaknesses of his regime, his departure could be delayed a long time, 
creating tension and instability in Kosovo should power and 
responsibility continue to be denied the Albanians. Moreover, it is not 
at all clear that a post-Milosevic government will have the desire or 
the political backing to accept a change in Kosovo's status. One could 
reasonably argue that is better for the international community and the 
Serbian opposition to change Kosovo's status while Milosevic is in 
charge.
    Another problem is our use of the so-called Federal Republic of 
Yugoslavia--the FRY. Everyone knows why that term was used in 1244 and 
not Serbia. The sad fact is that the FRY is a family enterprise of Mr. 
Milosevic that serves to give his rule some legal patina. Every 
republic has gotten out, and the last remaining one--Montenegro--also 
wants out, much to allied discomfiture. The U.S. does not recognize the 
FRY, although we appear to have stopped saying that. Resurrection of 
the FRY is a highly dubious enterprise even in a post-Milosevic period.
    It is, however, at this time not possible politically--desirable or 
not, easier now rather than later--to change the status accorded Kosovo 
by the international community. And that, I believe, is producing a 
drift in Kosovo and in Allied determination. The people of Kosovo still 
does not know what local elections--which are to be held in the 
autumn--mean; and there seems to be, at least among some allies, a 
sense that Kosovo is really just a part of Serbia. It is important for 
the U.S. to make its views crystal clear to the people of Kosovo and to 
the world at large: that while the status of Kosovo still has to be 
determined, Serbian rule will not return to Kosovo and independence is 
a permissible goal once certain conditions about the nature of an 
independent Kosovo state are met, including a demonstrated commitment 
to minority rights and the adherence to internationally recognized 
borders. Credible elections will also be needed to establish the 
legitimacy of Kosovo governments and the growing responsibility of 
those voted into office. In short, we either start to set the rules for 
a transition to what may be Kosovo independence or we allow ourselves 
to be hostage to events in Kosovo and the region.

4. How do Serbia and Kosovo live with each other in the long run?

    If Western forces are ever to be withdrawn from Kosovo, clearly 
Serbia and Kosovo must be able to work out some sort of stable 
relationship. Whether this will be possible and when is, of course, 
hard to predict. The history of the two communities has been a violent 
one. Even if attainment of that objective is difficult, it is important 
not to lose sight of it.
    We can say a few things about the longer term. First, the 
relationship can not improve while Milosevic remains in power. He is 
still trying to preserve the potentiality for Serb rule in Kosovo and 
to undermine UNMIK authority. Business can not be done with him. A 
different type of Serbia will be needed.
    Second, even if a Serbian Abe Lincoln took charge and offered 
malice toward none, not one Albanian would support any serious 
political tie to Belgrade. Nevertheless, the Albanian leaders of Kosovo 
must realize, that while independence is their goal, they will still 
have to coexist with a next-door, much stronger Serbia. They must 
examine the government that succeeds Milosevic in that light and how 
they might proceed constructively with its leaders. They also must 
recognize that a continuing Western military presence in Kosovo could 
be challenged by domestic considerations in allied nations.
    Third, much will depend on Europe and what it does in Kosovo, in 
Serbia when it is free of Milosevic, and in the broad Balkan region. 
The prospects for stability and ultimate reconciliation depend in great 
part both on economic growth in all the countries in the area but also 
on their respective relationships with Europe. It will only be possible 
to remove Western troops when both Kosovo and Serbia are bound to 
European institutions in some serious fashion. Whether Europe can rise 
to the occasion and produce a long-term integrative process remains to 
be seen. Europe has many other things on its mind. But I believe the EU 
increasingly realizes that connection and Mr. Solana and Mr. Patten 
have added energy and urgency to EU efforts.

5. Finally, what is the role of the U.S. in shaping the future of 
        Kosovo?

    The U.S. was the heart of the Alliance war effort. For the long 
term, however, it is the EU, as I noted above, which has the central 
role in ultimately stabilizing the former Yugoslavia. But it can take 
quite a while to get to the long-term and the U.S. remains essential 
for security and political purposes. The U.S. supplies only 15-20 
percent of KFOR, but the continued presence of a significant American 
force is needed to provide the assurance to the Kosovo Albanians that 
Serbian forces will not simply be able one day to walk in and resume 
control. The presence of American forces conveys a similar type message 
to any Serbian government.
    Certainly until more progress is made in creating new self-
sustaining political institutions in Kosovo and we see the impact of a 
post-Milosevic government in Belgrade, serious American forces will be 
required. While the bulk of the Western military presence will have to 
come from European countries, it would be a mistake to simply consider 
this division a burden sharing problem.
    The nature and role of our forces are also important--whether U.S. 
military efforts are narrowly confined or significantly robust and 
determined to get the job done. I note that Kosovo Serbs have 
complained a few days ago that British forces do a better job of 
providing protection to Serbs than American ones. I think the way our 
forces are being used in Kosovo is worth serious review.
    There is, moreover, an important political purpose served by the 
continuing presence of U.S. forces in Kosovo, namely a stronger voice 
in determining Alliance strategy in the Balkans, where we have a major 
investment and interests and values to protect. The U.S., to its 
credit, is an important catalytic element, particularly in the Balkans; 
it needs to remain involved in working to avoid backsliding so that we 
do not fall into repeating our past experience with Kosovo, and that we 
do what is necessary to insure that the Alliance maintains a 
sufficiently strong posture in Kosovo, and indeed the whole of the 
former Yugoslavia, so that we will be successful, rather than doing 
just enough to falter and create uncertainty and further instability.
    And in this regard I must express some concern as to our 
involvement in the non-military aspects of the Kosovo problem. An 
Albanian friend has commented that the U.S. won the war and seems to 
have disappeared from Kosovo. In helping make things happen in Kosovo, 
in the vital task of building a civil society the U.S. government seems 
to be largely absent. I am sure you will get a catalogue of all the 
U.S. government is doing in Kosovo if you ask the question, but, I 
believe, it is another subject worth seriously looking at in detail.
    Let me close by saying that in Western Europe in the 1940's our 
exit strategy in war and peace was to be successful. If you need an 
exit strategy for Kosovo I suggest that is also the most fitting one.

    Senator Smith. Thank you, Mr. Ambassador.
    Dr. Williams.

 STATEMENT OF DR. PAUL R. WILLIAMS, ASSISTANT PROFESSOR OF LAW 
 AND INTERNATIONAL RELATIONS, AMERICAN UNIVERSITY, WASHINGTON, 
                               DC

    Dr. Williams. Thank you, Mr. Chairman. It is an honor to 
appear before the members of the Senate Foreign Relations 
Committee to discuss American efforts to build peace in Kosovo 
and throughout the former Yugoslavia.
    I am particularly grateful to appear before this body, as 
many of its members have a long and active role in seeking to 
ensure a coherent American policy that promotes America's moral 
interest in human rights and human dignity in the former 
Yugoslavia while also protecting America's strategic interest 
in a stable Europe, a democratic Balkan region, and the 
preservation of American military capability and readiness.
    Before I begin my testimony, I should mention by way of 
background that I served as an advisor to the Kosovo Albanian 
delegation during the Rambouillet/Paris negotiations and to the 
Bosnian delegation during the Dayton negotiations, and 
previously served as a lawyer with the Department of State's 
Office of Legal Adviser for European Affairs.
    Let me now turn to a summary of the substance of my written 
testimony, which I would like to submit for the record. I have 
entitled it, ``Winning the Peace in Kosovo, Time to Formulate a 
Strategy.''
    To win the peace in Kosovo the United States must 
articulate a clear and attainable objective and develop and 
pursue a coherent strategy. To date, the United States has not 
articulated a meaningful objective and has pursued only a 
tactical approach to the crisis in Kosovo and to the broader 
crisis in the former Yugoslavia. If this vacuum of strategic 
policy continues, the United States will be unable to extricate 
its military forces from either Bosnia or Kosovo in the 
foreseeable future, and will find itself confronted with 
perpetual conflict and crises, as it has for the past decade in 
this region.
    Although some American officials have proclaimed an 
objective of integrating the Balkan region into the economic 
and democratic structure of Europe, no official has articulated 
a clear and realistically attainable objective for Kosovo 
beyond securing the peace. Rather, they have pursued a policy 
of intentional ambiguity on important matters such as the final 
status of Kosovo.
    Consistent with this policy, the American Government has 
pursued only a tactical approach of addressing the consequences 
of the conflict, such as promoting the return of refugees, 
reconstructing homes, drafting legal codes, repairing the 
electrical grid, and getting children back to school. While 
necessary first aid, these actions are not sufficient to heal 
the wounds of the conflict, or to prevent further conflict.
    Importantly, the American Government has deployed over 
5,000 military personnel to support this Band-Aid approach in 
Kosovo. At no time, however, not even during the debate over 
the Byrd-Warner amendment, has the U.S. Government publicly 
articulated the overall strategy which the deployment of 
American troops is designed to support.
    This purely tactical approach represents a failure to learn 
the lessons of the Bosnia conflict, where the absence of a 
strategic policy has cost the United States billions of dollars 
and tens of thousands of military man-hours. The results of 
this effort have been that only a fraction of the refugees have 
returned to their homes, while Serb nationalists still exercise 
significant, if not determinative, political influence in the 
Republic of Srpska which they use to prevent the implementation 
of the Dayton agreement.
    One reason why the U.S. Government has been unable to move 
beyond the tactical approach is that since the origination of 
the conflict American policy has revolved around accommodating 
the interests of Slobodan Milosevic, and now that he has been 
indicted for crimes against humanity by the Yugoslav War Crimes 
Tribunal, he can no longer be relied upon as our partner in 
peace.
    As a result, rather than now crafting an aggressive 
strategy to confront Milosevic and deny him the fruits of 
ethnic aggression, American diplomats have developed a passive 
shadow strategy of waiting for a democratic transformation in 
Serbia to remove Mr. Milosevic.
    In formulating a clear and obtainable objective for U.S. 
policy, it is necessary to assess the costs of losing the 
peace, assess the causes of the conflict, and understand the 
requirements for further peace-building. The consequence of 
losing the peace in Kosovo will be a politically radical Kosovo 
population, devoid of Serbian or other minorities, which is, de 
facto if not de jure, partitioned along the Mitrovica fault 
line, leaving the Kosovo Albanian controlled territory to seek 
unification with Albania and/or the Albanian areas of 
Macedonia.
    Senator Biden. Excuse me, Mr. Chairman. What do you mean by 
losing? Does your little scenario mean that there are no NATO 
forces any longer in Kosovo?
    Dr. Williams. It means failing to win the peace, withdrawal 
of NATO forces, and the failure to democratize properly within 
Kosovo.
    Senator Biden. You think that this would result in the 
Kosovars in control of Kosovo? Good luck.
    Dr. Williams. Well, on a good day.
    Senator Biden. They would last about a day.
    Dr. Williams. I did not want to be too pessimistic, but I 
will get to that more pessimistic part in a few moments.
    The Kosovo crisis is largely the result of the failure to 
win the peace in Bosnia, the failure to politically confront 
Milosevic before the use of force becomes necessary, and the 
failure to ensure equal protection of rights and the security 
of Albanian and Serbian ethnic groups.
    Now, to create the circumstances necessary for winning the 
peace in Kosovo, the United States must immediately undertake a 
process for determining the final status in Kosovo. The 
approach of delaying the resolution of Kosovo's final status in 
hopes of a near-term democratic transition in Serbia is flawed, 
as either Mr. Milosevic will be replaced by a strong 
nationalistic force that would pursue a similar or even more 
aggressive policy toward Kosovo.
    And when over time a more democratic force will come to 
power, it will be unlikely to cope with the responsibilities 
and burdens of addressing the Kosovo crisis as well as the 
multitude of other tasks that will confront them as they try to 
politically and economically reconstruct Serbia. In fact, Mr. 
Milosevic and not the democratic opposition should be held 
politically accountable for Serbia's inevitable loss of Kosovo.
    The second important element is to exercise American 
leadership to coordinate and to constrain the actions of our 
allies, in particular the French, who seem to have embarked 
upon a separate policy of engagement with Kosovo Serbian 
political forces based on the principal of maintaining peace 
through the accommodation of hard-line local Serbian interests, 
which we know are directed from Belgrade. It is also necessary 
for the United States to take the lead in containing the 
influence of Russia.
    To win the peace in Kosovo, the American objective should 
be to create an economically and politically self-sufficient 
multi-ethnic Kosovo capable of defending itself against 
possible further acts of Serbian State-sponsored ethnic 
aggression.
    In return, this entity must protect the rights of minority 
populations resident on its territory and act responsibly 
toward its neighbors. The strategy for accomplishing this 
objective should be for the United States, supported by its 
allies, to manage a process of intermediate sovereignty and 
earned independence for the people of Kosovo.
    This process would entail arrangements whereby the people 
of Kosovo for a period of 3 to 5 years would be entitled to 
exercise specified sovereign rights while under the continuing 
mandate of Resolution 1244, and undertake certain essential 
political commitments. After this period, Kosovo would be 
entitled, subject to an internationally conducted referendum 
within Kosovo, to seek recognition from the international 
community.
    During the interim period, the people of Kosovo would 
exercise, in cooperation with UNMIK, complete legislative, 
executive, and judicial control over their internal affairs. 
The people of Kosovo would also be entitled to begin to conduct 
their own international affairs, and to appoint international 
representatives.
    In exchange for the exercise of these sovereign rights, 
Kosovo would be required to implement specific guarantees that 
it would protect the rights of all minority populations within 
its territory, respect the territorial integrity of neighboring 
states such as Macedonia and Albania, and accept its borders as 
confirmed by the 1974 Yugoslav constitution. Compliance with 
these obligations should be measured and assessed by an 
independent international entity.
    At the end of this interim period, the criteria for 
recognition of Kosovo would be based upon an assessment of the 
fulfillment of these commitments. If recognized by the 
international community, Kosovo would remain bound by these 
commitments.
    Now, as the most recent crisis in Kosovo is but a 
continuation of the Yugoslav crisis begun in 1991, it is also 
necessary to establish objectives and strategies for winning 
the peace throughout the territory of the former Yugoslavia, 
which I go into in more detail in my written testimony. To win 
back the peace in Bosnia it is necessary to acknowledge the 
nature of the Dayton Accords as a flawed peace agreement and 
either renegotiate or evolve these accords in a manner which 
deconstructs the resulting institutions and attributes of 
Milosevic's efforts to partition Bosnia.
    To prevent the conflict in Montenegro, it is necessary to 
demonstrate tangible benefits to democracy on a political path 
separate from that of Serbia. Montenegro must be provided with 
security guarantees, and Serbia must be confronted with clear 
warnings of economic and political sanctions in the event it 
sponsors a coup or other covert action in Montenegro. Moreover, 
Montenegro must be engaged in the Kosovo peace-building 
process.
    To win the conflict in Serbia, it is necessary to promote a 
democratic transition beyond the current institutionalized 
political opposition. This will require a series of 
transitions. The Yugoslav tribunal's indictment of the top 
leadership should be maximally utilized to delegitimize and 
discredit the current nationalist regime, and America should 
lead its allies in isolating Milosevic and his accomplices.
    America should make clear that Serbia will be barred from 
international assistance until Milosevic is not only removed 
from power, but also surrendered to The Hague.
    In conclusion, the lack of a strategic policy for bringing 
a lasting peace to Yugoslavia has resulted in hundreds of 
thousands of deaths, the displacement of over a million 
refugees, the degradation of United States and NATO military 
forces, diplomatic strains within the American-European 
alliance, and a diversion of resources and attention from other 
areas of strategic importance.
    Unless the United States wishes to create a permanent 
peacekeeping force in the region, it must develop an aggressive 
strategy for each zone of conflict in the former Yugoslavia. 
For Kosovo, that policy should be one of intermediate 
sovereignty and earned independence.
    I thank the members of the committee for this opportunity 
to testify.
    [The prepared statement of Dr. Williams follows:]

               Prepared Statement of Dr. Paul R. Williams

       WINNING THE PEACE IN KOSOVO: TIME TO FORMULATE A STRATEGY

    It is an honor to appear before members of the Senate Foreign 
Relations Committee to discuss American efforts to build peace in 
Kosovo and throughout the former Yugoslavia. I am particularly grateful 
to appear before this body as many of its members have taken an active 
role in seeking to ensure a coherent American policy which promotes 
America's moral interest in human rights and human dignity, while also 
protecting America's strategic interest in a stable Europe, a 
democratic Balkan region, and the preservation of American military 
capability and readiness.
    Before I begin my testimony I should mention by way of background 
that I served as an advisor to the Kosovo Albanian delegation in 
Rambouillet and Paris, and as an advisor to the Bosnian government 
delegation to the Dayton negotiations. I have also advised the 
government of Macedonia on matters relating to the conflict. Earlier in 
my career, during the initial development of America's response to the 
conflict in the former Yugoslavia, I served with the Department of 
State as a lawyer for the Office of European and Canadian Affairs.
    Let me now turn to the substance of my testimony, which I have 
submitted for the record.
    To win the peace in Kosovo the United States must articulate a 
clear and attainable objective and develop and pursue a coherent 
strategy. To date, the U.S. Government has not articulated a meaningful 
objective, and has pursued only a tactical approach to the crisis in 
Kosovo, and to the broader crisis in the former Yugoslavia. If this 
vacuum of strategic policy continues, the United States will be unable 
to extricate its military forces from either Bosnia or Kosova in the 
foreseeable future and will find itself confronted with perpetual 
conflict and crises in the region.
    To win the peace in Kosovo the American objective should be to 
create an economically and politically self-sufficient multi-ethnic 
Kosovo capable of defending itself against possible further acts of 
Serbian state sponsored ethnic aggression. In return this entity must 
protect the rights of minority populations resident on its territory 
and act responsibly toward its neighbors. The strategy for 
accomplishing this objective should be for the U.S., supported by its 
allies, to manage a process of intermediate sovereignty and earned 
independence for the people of Kosovo.
    As the most recent crisis in Kosovo is but a continuation of the 
Yugoslav crisis begun in 1991, it is also necessary to establish 
objectives and strategies for winning the peace throughout the 
territory of the former Yugoslavia.

           THE CURRENT TACTICAL APPROACH TO WINNING THE PEACE

Addressing the Consequences of the Conflict, While Failing to Address 
        the Causes

    Although some American officials have proclaimed an objective of 
integrating the Balkan region into the economic and democratic 
structure of Europe, no official has articulated a clear and 
realistically attainable objective for Kosovo or for the region of the 
former Yugoslavia, beyond ``securing the peace.'' \1\
    Moreover, while American officials have declared their intent to 
promote vague principles of democracy, security, human rights, economic 
development, and have discussed a second Marshall Plan or a 
reapplication of the ``states in transition'' approach to the northern 
tier of Central and Eastern Europe, they have not articulated concrete 
objectives tailored to the specific circumstances of the former 
Yugoslavia.\2\
    Rather, the American Government has pursued a tactical approach of 
addressing the consequences and not the causes of the conflict, which 
include promoting the return of refugees, reconstructing homes, 
drafting legal codes, repairing the electrical grid and getting 
children back to school.\3\ More generally, the approach has included 
efforts to build ``civil society,'' arrange elections, provide security 
and revitalize the economy.\4\ The success of this policy has been 
defined in terms of a reduced homicide rate, pledges for international, 
funding, and an increasing number of international personnel deployed 
to the region.\5\
    The American Government has also deployed over 5,000 military 
personnel to support its tactical efforts in Kosovo. At no time, 
however, has the U.S. Government articulated the overall strategy which 
these tactical efforts, or which the deployment of American troops is 
designed to support, or has it demonstrated how the tactical efforts 
and the actions of the military forces are interrelated as part of a 
larger plan.
    While necessary to repair and redress the consequences of the 
Kosovo conflict, the tactical efforts currently pursued by the U.S. 
Government, absent a strategic approach, are insufficient to build the 
foundation for a lasting peace in Kosovo or the former Yugoslavia. Even 
if the U.S. successfully restores electricity, reconstitutes the police 
force, redrafts the school curriculum and trains an impartial 
judiciary, the U.S. still will not have resolved the underlying causes 
of the conflict, which emanate from Belgrade and have become deeply 
rooted in the Kosovo political context. To win the peace it is 
necessary to address the fact that the primary cause of the conflict 
and the continued instability in the region is the use of ethnic 
aggression and political oppression by Milosevic's Serbian nationalist 
regime as a means of perpetuating its political power.

Failing to Learn the Lessons of Bosnia

    In fact, if pursued in a policy vacuum, even these limited tactical 
objectives are unlikely to be met. In the case of Bosnia, the absence 
of a strategic approach has meant that despite billions of dollars in 
international assistance and tens of thousands of military man-hours 
few Bosniac refugees have been able to return to their homes in Serb 
controlled Republika Srpska; there is only the most minimal freedom of 
movement across the inter-entity boundary line; Serb nationalists still 
exercise significant if not determinative political influence in the 
Republika Srpska; the Bosniac-Croat Federation and the Bosnian central 
government are politically gridlocked along ethnic lines; the economy 
continues to teeter on the brink of collapse; and the Bosniac political 
community has become polarized.\6\
    More importantly, the rush to pursue tactical objectives on their 
own is likely to undermine the prospects for a meaningful peace, as has 
been the case in Bosnia. For instance, in an effort to demonstrate 
movement toward the tactical objectives of the Dayton Accords the U.S. 
Government essentially directed the OSCE to hold elections even though 
the circumstances all but precluded the possibility of free and fair 
elections. After 104% of the population voted, the OSCE, again under 
pressure from the U.S. Government, declared these elections to have 
been substantially free and fair.\7\ As a result, hard-line Serbian 
representatives took up power in the Republika Srpska institutions and 
the Serbian section of the Bosnian parliament, and Momcilo Krajisnik 
was elected as the Serb representative to the Bosnian Presidency. From 
this vantage point, and. with support in the Bosnian parliament and the 
Republika Srpska, Mr. Krajisnik continued to pursue the policy of a de 
facto partition of Bosnia and ethnic segregation which he had 
orchestrated during the campaign of ethnic aggression. After completing 
his term, Mr. Krajisnik was indicted by the Yugoslav Tribunal for 
crimes of genocide which he had committed prior to being elected to the 
Bosnian Presidency.
    The continued absence of a strategic policy for Bosnia has created 
conditions where even just this last May an Italian military contingent 
assigned to provide security to a convoy of Bosniac women returning to 
visit graves in Bratunac stood by while Serb protesters stoned the 
Bosniac women in their care. Moreover, growing weary of the inability 
of international efforts to secure their return home, increasing 
numbers of refugees and internally displaced persons are engaging in 
spontaneous returns. Even then, the international community is only 
capable of providing reconstruction assistance to approximately 10 
percent of these returnees.\8\
Affirmatively Declining to Formulate or Declare a Strategy
    As a consequence of the absence of a strategic approach to the 
Kosovo crisis, and in light of concerns about the proper use of U.S. 
military forces and the extent of European financial and military 
commitments, Senators Byrd and Warner recently unsuccessfully sought to 
insert a provision into the Military Construction Appropriations Act, 
2001. This provision would have terminated funding for the continued 
deployment of U.S. ground combat troops in Kosovo after July 1, 2001, 
unless the President sought and received congressional authorization to 
continue such deployment.\9\ A similar measure was adopted by the 
House.
    Notably, during the debate over the Byrd-Warner provision the 
Executive Branch objected to the withdrawal of American troops on the 
grounds that a number of negative consequences would occur, including 
straining our relations with our European allies, undermining the 
effectiveness of NATO and usurping the constitutional authority of the 
Executive Branch. At no time, however, did the Executive branch offer 
an affirmative public explanation as to what purpose the troops were 
serving in Kosovo, beyond that of ``providing security.'' Notably, the 
Executive branch failed to articulate the specific policy which 
required that the troops be placed in harms way, or to establish a 
standard by which the success of the mission could be measured and 
American troops withdrawn. In fact, according to a recent International 
Crisis Group report, the primary mission of American forces in Kosovo 
is ``force protection,'' \10\ which is to say that the American 
military forces in Kosovo are there to protect the American military 
forces in Kosovo. Such a state of affairs could only occur in a policy 
vacuum.

Failing to Aggressively Delegitimize Slobodan Milosevic

    One reason why the U.S. Government is unable to move beyond a 
tactical approach is that since the origination of the conflict, and 
particularly during the Dayton negotiations and the run-up to the 
Rambouillet/Paris negotiations, American policy revolved around 
accommodating the interests of Slobodan Milosevic. Now that Mr. 
Milosevic has been indicted for crimes against humanity by the Yugoslav 
Tribunal, he can no longer be relied upon as America's partner in peace 
and the American Government has found it difficult to formulate an 
alternative strategy.\11\
    Thus, rather than crafting a strategy to confront Milosevic and 
deny him the fruits of ethnic aggression, American diplomats have 
developed a passive shadow strategy of waiting for a democratic 
transformation in Serbia to remove Milosevic.\12\ It should be 
recalled, however, that much of the current institutionalized 
``democratic opposition'' is based on Milosevic's failure to achieve 
his nationalist agenda or on the negative consequences experienced by 
Serbia, but not necessarily on opposition to his ideas of ethnic 
supremacy or notions of a greater Serbia.

  CRAFTING AN APPROACH TO WINNING THE PEACE: SETTING AN OBJECTIVE AND 
                         FORMULATING A STRATEGY

    In formulating a clear and attainable objective for U.S. policy 
there are three important steps to undertake. The first is to assess 
the costs of losing the peace in Kosovo, the second is to assess the 
larger geopolitical context of the conflict, and the third is to assess 
the causes of the conflict and the requirements of further 
peacebuilding.

The Costs of Losing the Peace in Kosovo

    A lost bid to win the peace in Kosovo will:

          Undermine the pluralistic and moderate political forces, 
        which understand the necessity of maintaining an ethnically 
        diverse Kosovo and ensuring the protection of minority rights;

          Strengthen less moderate elements of the majority population, 
        which are more inclined to act with hostility toward minority 
        groups in a manner designed to promote their emigration and 
        displacement;

          Negate international efforts to provide meaningful physical 
        security and a sense of rightful participation in the political 
        or economic future of a unified Kosovo;

          Enhance the international legitimacy and likelihood of 
        achieving Slobodan Milosevic's plan for a partition of Kosovo;

          Legitimize the Kosovo Albanian interest in creating a larger 
        territorial entity, which might include portions of Macedonia, 
        Serbia and Montenegro;

          Contribute to further conflict in the former Yugoslavia just 
        as the mismanaged peace in Bosnia significantly contributed to 
        Milosevic's calculation to undertake ethnic warfare in Kosovo.

    In sum, the consequence of losing the peace in Kosovo will be a 
politically radical Kosovo population, devoid of Serbian or other 
minorities, which is de facto if not de jure partitioned along the 
Mitrovica fault line, leaving the Kosovo Albanian controlled territory 
to seek unification with Albania and/or the Albanian areas of 
Macedonia.

Understanding the Broader Geopolitical Context of the Kosovo Crisis

    The crisis in Kosovo occurs within a broader geopolitical context 
of the former Yugoslavia and the Balkan region.
    When formulating an objective for American policy in Kosovo, it is 
necessary to learn the lessons of our failed effort confront ethnic 
aggression in Bosnia, and how our continuing refusal to reassess our 
Bosnian policy and renegotiate or further evolve the substance of the 
Dayton Accords, inhibits our ability to develop a coherent Kosovo 
policy. Moreover, it is important to acknowledge that our primary 
interlocutor, Slobodan Milosevic, is not a partner in peace, but a man 
indicted for crimes against humanity, that the current Serbian regime 
has a distinct interest in its own survival and is willing to invoke 
ethnic nationalism, and rely on totalitarian acts by the military, 
secret police and paramilitaries to manipulate political outcomes.
    The peace in Kosovo is thus linked to the reversal of political and 
territorial gains achieved in Bosnia through ethnic aggression, the 
efforts of the Serbian people to topple Milosevic's nationalist regime, 
as well as to the efforts of Montenegro to chart a democratic path 
separate from that of the Milosevic regime. The Kosovo peace is also 
linked to political and economic stability in Albania and Macedonia and 
those countries interpretations of American and European intentions.

Assessing the Causes of the Conflict and the Requirements of Further 
        Peacebuilding

    As we assess the causes of the conflict and the requirements for 
the creation of political circumstances conducive to peacebuilding, we 
find that they are the same issues which existed when the U.S. 
Government accepted the Holbrooke/Milosevic Deal of October 1999 
providing for the unarmed Kosovo Verification Mission, and which pre-
occupied American efforts during the Rambouillet/Paris negotiations and 
the drafting of UNSC Resolution 1244.

            (1) The need to meaningfully protect the physical security, 
                    human rights and property interests of all ethnic 
                    groups in Kosovo

    Throughout Kosovo's incorporation in the former Yugoslavia, the 
equal and fair treatment of ethnic groups has been a major point of 
friction, whether it was the treatment of the Serbian and other ethnic 
groups from 1974 to 1989, or the treatment of Kosovo Albanians from 
1989 until the summer of 1999. To remove this issue as a source of 
conflict will be difficult and will require both an incentive for the 
regionally and locally dominant ethnic groups to respect each others 
rights and ensure their physical security. These efforts must be 
matched by aggressive KFOR actions designed to ensure security for all 
groups.

            (2) The need to meaningfully restructure the economy and 
                    promote economic development

    In Bosnia the international community has created an aid dependent 
economic structure, and political institutions which are structurally 
incapable of exercising cogent control over the economy or raising 
economic revenue through fair taxes and customs. To avoid a similar 
situation in Kosovo it is necessary to first return to the Kosovo 
government the state owned property illegitimately transferred to 
Serbia after 1989 and privatized to Milosevic's supporters or to 
international entities--primarily located in Greece and Italy. It is 
also necessary to create an incentive for long term investment by 
international concerns, and for long term planning by Kosovo's 
indigenous governing institutions. Importantly, the state operation or 
privatization of this industrial property could significantly enhance a 
Kosovo government's financial resources separate from aid donations. 
Finally, it is necessary to prevent the partition of Kosovo along the 
current defacto line of segregation running through the industrial town 
of Mitrovica. KFOR's removal of the Serbian Ministry of Interior Forces 
serving as ``Bridge Watchers'' would be a constructive first step in 
this process.

            (3) The need to ascertain and articulate a final status for 
                    Kosovo which promotes regional security

    Articulating a clear and workable process for settling on a final 
status for Kosovo is essential to preventing further conflict and to 
promoting the political and economic progress discussed immediately 
above. Without a clear timetable for resolution of the final status 
issue, and without a clear objective toward which the people of Kosovo 
can strive, there will be little incentive to protect minority rights, 
and plan for long term economic growth.
    Unfortunately, the U.S. Government has adopted only a short term 
policy which calls for substantial autonomy under the interim 
regulation of the United Nations,\13\ and avoids discussions concerning 
determination of a final status. In fact, when asked about plans for 
resolving the question of the final status of Kosovo, now former 
Department of State Press Spokesman James Rubin summarized U.S. policy 
as,

          [UNSCR 1244] doesn't envisage independence. What the 
        resolution does is say that this issue is to be determined 
        pursuant to the same kind of process--and I think it refers to 
        the Rambouillet Accords--in which the international community, 
        the views of the people of Kosovo, will be taken into account 
        in some diplomatic process. That's how we, the United States, 
        see the future unfolding; that, at the appropriate time, a 
        conference or a meeting or discussion will be held in which all 
        the relevant views can be considered and decisions can be 
        considered. So that is our view.\14\

    Delaying an initiation of a process for the resolution of the final 
status of Kosovo plants the seeds of further, conflict, as the Contact 
Group did during the Dayton negotiations when it failed to address the 
status of Kosovo while it held maximum leverage over Milosevic.
    The approach of delaying the resolution of Kosovo's final status in 
the hopes of a near term democratic transition in Serbia is flawed as 
either Milosevic will be replaced by strong nationalist forces that 
would pursue a similar or even more aggressive policy toward Kosovo. 
And, when over time more genuinely democratic forces came to power, 
they would be unlikely to cope with the responsibilities and burdens of 
addressing the Kosovo crisis as well as the multitude of other tasks 
that will confront them as they try to politically and economically 
reconstruct Serbia. In fact, Milosevic and not the democratic 
opposition, should be held politically accountable for Serbia's 
inevitable loss of Kosovo.
    Interestingly, American officials have indicated that they believe 
the Kosovars' desire for independence will wane as they experience 
``genuine self-government'' under the interim U.N. administration.\15\ 
Such a development is unlikely given that even the most moderate Kosovo 
Albanian political forces are calling for immediate independence.\16\ 
By acknowledging the Kosovo Albanians' well founded desire for 
independence and structuring a process for establishing a final status, 
the U.S. Government would both reassure the Kosovo Albanian majority 
that they will not be pressured by the international community to 
return to Serbian rule, while also permitting the international 
community to demand responsible and accountable behavior on the part of 
the Kosovo Albanian political leadership. The creation of such a 
process would also signal the Kosovo Serbs that they will have to 
choose between their Serbian and Kosovar identities, thus facilitating 
individual decisions on whether to reside in Kosovo.

            (4) The need to create and maintain political cohesion and 
                    solidarity among the Kosovo Albanian political 
                    forces, and to create a Serbian political force 
                    separate from Milosevic's control and manipulation

    The regime of near-apartheid imposed upon the Kosovo Albanian 
population from 1989 predictably fragmented civil society. Moreover, 
the failure of the peaceful resistance to yield tangible results led to 
the militarization and in some instances the radicalization of certain 
segments of society. This diversity of public views has become 
reflected in the institutions of political representation.
    To move forward in building peace in Kosovo it is necessary to 
cultivate a process whereby through political dialogue these divergent 
views and interests can be brought together to form common consent on 
important political matters. During the Rambouillet/Paris negotiations, 
the members of the Kosovo delegation demonstrated the ability not only 
to make politically tough decisions, but also to operate by consensus.
    As in Bosnia, where recent international efforts to influence local 
elections have polarized the Bosniac political forces, the U.S. and its 
European allies run the risk of polarizing the Kosovo political forces 
and creating a situation where one can readily blame the victims for 
the failure to win the peace.
    Similarly, by failing to confront the henchmen of the Serbian 
nationalist regime, the international community may stunt the 
development of a responsible Serbian political class by allowing 
Milosevic's Ministry of Interior forces to dictate political events, 
particularly in the strategic town of Mitrovica.

            (5) The need to create a democratic governing regime based 
                    on majority rule and minority rights

    The former Yugoslav political system, which failed, was based on a 
series of ethnic representations and prerogatives. No other system like 
this existed in Europe. During the Dayton negotiations, and again 
during the Rambouillet/Paris negotiations the Contact Group, led by the 
U.S., sought to recreate such a system for the people of Bosnia and the 
people of Kosovo. While the Bosnians now suffer the consequences of 
institutionalized ethnic identity and political gridlock, the people of 
Kosovo have been temporarily spared this fate. To create a healthy and 
functional political system for Kosovo it will be necessary to create a 
system similar to those throughout Western and Central Europe based on 
the principle of majority rule and minority rights.

            (6) The need to constructively engage and transform the 
                    militarized elements of the Kosovo Albanian 
                    population

    While the U.S. Government accurately asserts that the KLA has been 
demilitarized,\17\ certain more radical elements have not been 
constructively engaged or transformed. Rather they have been directed 
into the police, Kosovo Protection Corps and the political process. 
While this action disperses them throughout civil society, it does not 
transform their beliefs or actions, but in fact provides them a wider 
base from which to seek to accomplish their objectives. Importantly, 
most of the members of the KLA or associated organizations are not 
radical--yet there appears to be no clear program of enhanced 
engagement for these more moderate elements demonstrate the political 
benefits of their more moderate approach. Rather, the policy-makers are 
relying on KFOR to maintain security in the region, while they simply 
demand that the moderate elements exercise control over the more 
radical elements.\18\
    U.S. efforts thus should not be focused on the KLA as an 
institution, but rather on members of the KLA who have become 
radicalize by the near-apartheid regime of the 1990s and the atrocities 
committed in 1998 and 1999. Moreover, U.S. policy should remove the 
public attraction to these radicals by moving to actively address the 
question of Kosovo's ability to carry out its own self-defense upon the 
withdrawal of NATO forces. To accomplish this objective America should 
lead efforts to create a Kosovo Defense Corps. The creation of such a 
Corps would also serve as a key element of an exit strategy for 
American military forces.

            (7) The need for American leadership to coordinate and 
                    constrain the actions of our allies, and to 
                    moderate the influence of Russia

    While the United States has sought to promote cooperation among our 
allies through various multilateral mechanisms,\19\ our European allies 
have been at the forefront of efforts to remove or weaken the sanctions 
against the Belgrade regime, while allies such as Argentina, Australia 
and Mexico have undermined American efforts to isolate Milosevic by 
permitting their Ambassadors to meet with Milosevic personally to 
establish full diplomatic relations. Moreover, numerous Chinese, Greek, 
Nigerian, and Russian officials have met with Milosevic and other 
indicted war criminals in Serbia. These allies and partners in our 
peace effort bolster the interests of such states as Cuba, Iraq, Libya 
and Syria (all of which maintain full diplomatic relations with Serbia) 
in undermining U.S. policy in the Balkan region.
    Most troubling is the fact that our French allies seem to have 
embarked on a separate policy of engagement with Kosovo Serbian 
political forces which is based on the principle of maintaining peace 
through the accommodation of hard-line local Serbian interests--which 
are dictated by Milosevic's nationalist regime in Belgrade.
    Under these circumstances it is imperative that the U.S. assert its 
leadership role in the international efforts to bring lasting peace to 
the territory of the former Yugoslavia as absent such leadership our 
European allies are incapable of maintaining a united or coherent front 
in the face of either Milosevic or a resurgent Russia.
    In light of the risks of losing the peace, the geopolitical context 
of the conflict, and the above assessment of the causes of the conflict 
and circumstances necessary for peacebuilding, the American policy 
objective should be to create an economically and politically self-
sufficient Kosovo entity capable of defending itself against possible 
further acts of Serbian state sponsored ethnic aggression, and which 
protects the rights of minority populations resident on its territory 
and acts responsibly toward its neighbors. To accomplish this objective 
the U.S., supported by its allies, must manage a process of 
intermediate sovereignty and earned independence for the people of 
Kosovo.

     IMPLEMENTING INTERMEDIATE SOVEREIGNTY AND EARNED INDEPENDENCE

    The status of intermediate sovereignty and the process of earned 
independence would entail arrangements whereby the people of Kosovo 
would for a period of three to five years be entitled to exercise 
specified sovereign rights, while under the continuing mandate of 
resolution 1244, and undertake certain essential political commitments. 
After this period, Kosovo would be entitled, subject to an 
internationally conducted referendum within Kosovo, to seek recognition 
from the international community.
    During the interim period, the people of Kosovo would exercise, in 
cooperation with UNMIK, complete legislative, executive and judicial 
control over their internal affairs relating to economic development, 
internal security, education, taxation, extraction and processing of 
natural resources, transportation, health care, media and news 
broadcasting, cultural development, and the protection of minority 
rights. The people of Kosovo would also be entitled to begin to conduct 
their own international affairs and appoint international 
representatives.
    In exchange for the exercise of these sovereign rights, Kosovo 
would be required to implement specific guarantees that it would 
protect the rights of all minority populations within its territory, 
respect the territorial integrity of neighboring states such as 
Macedonia and Albania, renounce any intention of political or 
territorial association with Albania, and accept its borders as 
confirmed by the 1974 Yugoslav Constitution. Compliance with these 
obligations should be measured and assessed by an independent 
international entity. While UNMIK should be consulted as to its 
assessment of Kosovo's compliance its efforts must remain focused on 
the tactical objectives set out in resolution 1244.
    At the end of this interim period the criteria for recognition of 
Kosovo would include the traditional legal criteria of territory, 
population, government and capacity to conduct international relations, 
as well as the additional political criteria of whether it had 
protected the rights of minority populations within its territory, 
respected the territorial integrity of Macedonia and Albania, rejected 
any political or territorial association with Albania, and maintained 
the status of its borders. Once recognized by the international 
community, Kosovo would remain bound by these commitments.
    This approach to winning the peace in Kosovo is based on principles 
of international law, which provide that all self-identified groups 
with a coherent identity and connection to a defined territory are 
entitled to collectively determine their political destiny in a 
democratic fashion, and to be free from systematic persecution. In 
cases where self-identified groups were effectively denied their right 
to democratic self-government, and are consequently subjected to gross 
violations of their human rights, as has been the case with Kosovo, 
they are entitled to seek their own international status in order to 
ensure the protection of those rights.
    The case for intermediate sovereignty is further supported by: (1) 
the legal and factual similarity between Kosovo and the other Republics 
of the former Yugoslavia that were deemed by the international 
community to be entitled to international recognition; (2) the legal 
precedent of earned recognition established by the international 
community in recognizing Slovenia, Croatia, Bosnia-Herzegovina and 
Macedonia; (3) the fact that Yugoslavia has dissolved, and the 
international community has rejected Serbia/Montenegro's claim to 
continue its international legal personality; (4) the historic fact 
that Kosovo, while legitimately part of Yugoslavia, has never been 
legitimately incorporated into Serbia; (5) the fact that the people of 
Kosovo have been subjected to ethnic aggression; and (6) recent 
precedent set by the Northern Ireland Peace Agreement and others.

SECURING THE PEACE IN KOSOVO BY WINNING THE PEACE THROUGHOUT THE FORMER 
                               YUGOSLAVIA

    To win the peace in Kosovo it is necessary to recognize that the 
recent crisis in Kosovo is but a continuation of the Yugoslav crisis 
which began in 1991. As such, it is necessary to link the peace efforts 
in Kosovo to those in the other former Yugoslav Republics, and in 
particular to establish objectives and strategies for winning the peace 
throughout the territory of the former Yugoslavia.
    To secure the peace in Croatia, it is necessary to continue to work 
with the new government and the Yugoslav Tribunal to ensure the 
indictment and transfer to the Hague of all high level officials 
responsible for war crimes against Serb and Bosniac populations. It is 
further necessary to provide the new Croatian government with the 
political support, and when necessary political pressure, to severe the 
political and financial links between Croatia and Bosnian Croat 
political forces which continue to harbor an interest in a partitioned 
Bosnia.
    To win back the peace in Bosnia it is necessary to acknowledge the 
nature of the Dayton accords as a flawed peace resulting from America's 
failure to seriously confront Slobodan Milosevic or to truncate and 
roll back political gains, achieved through ethnic aggression. This 
effort must involve a three phase process. First, the U.S. Government 
must discontinue its policy of moral equivalence and equal blame among 
the parties, which undermines its efforts to constructively engage 
Bosniac and certain Croat forces in the peacebuilding process. Second, 
the U.S. Government must acknowledge the Dayton agreement was never 
meant to be static, but rather that it was designed and intended to 
evolve with changing political circumstances. And third, the U.S. 
Government must seek to evolve the Dayton agreement in a manner which 
deconstructs the resulting institutions and attributes of Milosevic's 
efforts to partition Bosnia along ethnic lines, including the gradual 
erasure of the inter-entity boundary line, the removal of the 
institutionalized ethnic veto, and the dissolution of most of the 
Republika Srpska political institutions--which are regularly used to 
organize actions which undermine or inhibit the reintegration of 
Bosnia.
    To prevent conflict in Montenegro it is necessary to demonstrate 
tangible benefits to democracy and a political path separate from that 
of Serbia.\20\ Montenegro must be provided security guarantees and 
Serbia must be confronted with clear warnings of economic and political 
sanctions in the event it sponsors a coup or other covert action in 
Montenegro.\21\ Moreover, Montenegro must be engaged in the Kosovo 
peacebuilding process.
    To secure the peace in Macedonia it is necessary to ensure 
continued economic growth and the resolution of outstanding political 
disputes with Greece. Most important is the need to further integrate 
the Macedonian Albanian population into Macedonia's political and 
economic infrastructure.
    To win the conflict in Serbia and silence the engine of aggression 
in the former Yugoslavia it is necessary to promote a democratic 
transition beyond the current institutionalized political opposition. 
This will require a series of transitions, with the first likely 
including members of the current opposition, but with subsequent 
governments including more genuinely moderate elements that accurately 
reflect the views of the oppressed and silenced mainstream population 
committed to a regionally responsible Serbia--such as the ones 
currently driving the Otpor student movement. The Yugoslav Tribunal's 
indictment of the top leadership should be maximally utilized to 
delegitimze and discredit the current nationalist regime, and America 

SHOULD LEAD ITS ALLIES IN ISOLATING MILOSEVIC AND HIS ACCOMPLICES.
                               CONCLUSION

    The lack of a strategic policy for bringing a lasting peace to 
Yugoslavia has resulted in hundreds of thousands of deaths, the 
displacement of over a million refugees, the degradation of U.S. and 
NATO military forces, diplomatic strains within the American-European 
alliance, and a diversion of resources and attention from other areas 
of strategic importance.
    Unless the U.S. wishes to create a permanent peacekeeping presence 
in the region it must develop an aggressive strategy for each zone of 
conflict in the former Yugoslavia.
    For Kosovo, the United States should pursue a policy of 
intermediate sovereignty and earned independence as this provides the 
best possible means for ensuring the long-term security of the Kosovo 
Albanian population, and for creating a meaningful incentive for the 
Kosovo Albanian political forces to ensure the protection of Serbian 
rights and security. Such an approach will also permit the U.S. to 
undertake a phased withdrawal of its troops over a reasonable period of 
time as the security of Kosovo increases and as the rights of 
minorities are increasingly safeguarded.

                                ENDNOTES

    \1\ Madeleine Albright, Our Stake in Kosovo, The New York Times, 
(March 28, 2000).
    \2\ Anthony E. Wayne, Statement before the House International 
Relations Committee, (August 4, 1999); Larry Napper, Statement before 
the House International Relations Committee, (August 4, 1999).
    \3\ James W. Pardew Jr., Statement before the House International 
Relations Committee, (April 11, 2000); William J. Clinton, Remarks by 
the President to the Students, Organization Leaders and Community 
Leaders of the Ferizaj (Urosevac) Area, Kosovo, (November 23, 1999); 
James W. Pardew Jr., Statement before the House International Relations 
Committee, (August 4, 1999).
    \4\ Madeleine K. Albright, Remarks at European Institute Awards 
Dinner, (January 26, 2000). The most concise statement of a U.S. policy 
with respect to Kosovo is, ``The United States and our European allies 
are committed to winning the peace in Kosovo by: addressing 
humanitarian needs and preparing for winter; easing ethnic tensions and 
protecting minority rights; and strengthening democracy and supporting 
civil society.'' The White House, Fact Sheet: Winning the Peace in 
Kosovo: A Progress Report, (November 23, 1999).
    \5\ Madeleine Albright, Our Stake in Kosovo, The New York Times, 
(March 28, 2000); James P. Rubin, Daily Press Briefing, U.S. Department 
of State, (March 22, 2000).
    \6\ For a more detailed account of the failure of Dayton 
implementation, see Is Dayton Failing?: Bosnia Four Years After the 
Peace Agreement, Report of the International Crisis Group, (October 28, 
1999).
    \7\ For a more detailed account of the circumstances surrounding 
the Bosnian elections, see Elections in Bosnia and Herzegovina, Report 
of the International Crisis Group, (September 9, 1996); Why the Bosnian 
Elections Must be Postponed, Report of the International Crisis Group, 
(August 14, 1996).
    \8\ Bosnia's Refugee Logjam Breaks: Is the International Community 
Ready?, Report of the International Crisis Group (May 30, 2000).
    \9\ The proposed amendment further directed the President to 
develop a plan for turning over peacekeeping efforts to the Europeans 
by July 1, 2001.
    \10\ Kosovo's Linchpin: Overcoming Division in Mitrovica, Report of 
the International Crisis Group, (May, 31, 2000).
    \11\ As concisely articulated by Ambassador Richard Holbrooke, U.S. 
policy has been, ``You can't make peace without President Milosevic.'' 
Jurek Martin, Holbrooke Sees ``Tough Slog'' to Peace in Bosnia, 
Financial Times (London), (November 2, 1995).
    \12\ Anthony E. Wayne, Statement before the House International 
Relations Committee, (August 4, 1999).
    \13\ James W. Pardew Jr., Statement before the House International 
Relations Committee, (April 11, 2000).
    \14\ James P. Rubin, Daily Press Briefing, U.S. Department of 
State, (April 21, 2000).
    \15\ Madeleine K. Albright, Remarks and Q&A Session with the 
Council on Foreign Relations, (June 28, 1999).
    \16\ See, James P. Rubin, Daily Press Briefing, U.S. Department of 
State, (April 21, 2000).
    \17\ James W. Pardew Jr., Statement before the House International 
Relations Committee, (April 11, 2000).
    \18\ James P. Rubin, Daily Press Briefing, U.S. Department of 
State, (March 16, 2000).
    \19\ Anthony E. Wayne, Statement before the House International 
Relations Committee, (August 4, 1999).
    \20\ To date, the U.S. Government has provided benefits only in the 
form of financial and technical assistance in the amount of $25 
million, with limited observer status in some of the regional political 
cooperation mechanisms. See James W. Pardew Jr., Statement before the 
House International Relations Committee, (August 4, 1999).
    \21\ To date, the U.S. Government has refused to provide any 
express security guarantees for Montenegro. Rather it has engaged in 
vague statements concerning American interests in Montenegro--similar 
to those which preceded the ethnic aggression in Kosovo in 1998. See, 
James P. Rubin, Daily Press Briefing, U.S. Department of State, (March 
22, 2000).

    Senator Smith. That is excellent testimony as well.
    Mr. Bugajski.

  STATEMENT OF MR. JANUSZ BUGAJSKI, DIRECTOR, EASTERN EUROPE 
   PROJECT, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Mr. Bugajski. Thank you, Mr. Chairman. Thank you for 
inviting me today to speak on Kosovo, past, present, and 
future. It is an honor to be here. I would simply summarize my 
written statement, which is deliberately concise to begin with, 
and so I am going to be very brief.
    Let me just say that since the liberation and occupation of 
Kosovo by NATO forces in June 1999, a year ago, both 
constructive and negative developments have been evident on the 
territory as a result of both internal factors and external 
factors.
    Let me just point out some of the positives that we 
mentioned already, but I think it is worth underscoring. On the 
security side, Kosovo has witnessed the expulsion of repressive 
Serb security forces, and the successful return of over 1 
million Kosovar Albanian refugees. NATO, despite some of the 
security concerns vis-a-vis the minority groups, is effectively 
safeguarding the territory from Yugoslav or Serbian military 
reintervention.
    Second, on the reconstruction side, some basic 
reconstruction work has been accomplished, especially in 
providing shelter, food, medical aid, and other services to the 
destitute. Some initiatives have begun in encouraging 
development of small businesses and in identifying key 
infrastructural projects over the coming years. Efforts are 
also underway to rebuild the educational system, the health 
care system, the energy network, and public administration.
    This is all to the good. However, what I would like to 
focus on are the shortcomings, and I think there are four major 
shortcomings with the U.N. mandate and with our operation 
there. First, I would call it political paralysis. There is 
currently no legitimate Kosovar Albanian authority, and this 
contributes to paralyzing and polarizing the development of 
political institutions. The creation of a Kosovar Advisory 
Council under the supervision of U.N. Special Representative 
Bernard Kouchner has not filled the political vacuum.
    Second, criminality and corruption threaten the security of 
residents. They perpetuate the climate of revenge against 
minority Serbs and undermine the emergence of a democratic 
system. In addition, Milosevic's special security forces and 
paramilitaries sometimes in plain clothes continue to operate 
in Kosovo, deliberately provoking violence to discredit 
international institutions, to undermine the longevity of the 
NATO mission, and to discount any realistic possibility of 
Kosovar self-government.
    Third, international failures. I would say Kosovo has 
witnessed a number of institutional shortcomings by 
international agencies. For example, lack of serious 
reconstruction resources, insufficient number of international 
police officers, turf battles between international 
organizations, and the creation of deliberative councils 
without any ultimate authority or decisionmaking power.
    There have also been persistent delays in training and 
deploying an indigenous police force and establishing a 
credible and professional judiciary system that could enforce 
law and order on the territory.
    Fourth, and I think the most important failing, and it has 
been mentioned already, but again is worth underscoring, is the 
lack of final legal status for Kosovo as an independent state. 
Western leaders still believe that postponing the decision on 
Kosovo's status will allow for democratic changes to take place 
inside Serbia and enable some new relationship to emerge 
between Serbia and Kosovo.
    In the interim, and regardless of whether such a rosy 
scenario actually materializes, NATO may be faced with 
escalating anger amongst the Albanian community if the United 
Nations insists on preserving Kosovo within Serbia. As we know, 
the vast majority of Albanians support statehood, irrespective 
of any possible leadership changes, or regime changes in 
Belgrade.
    For the indefinite future, Kosovo it looks will remain an 
international ward without any inspiring vision for its future 
status, but such a scenario has raised, I believe, serious 
questions about the self-determination of Kosovo's population 
and the instabilities that could be generated by any planned 
reintegration into Serbia.
    Indeed, I would say a valid argument can be made that in 
order to avoid future destabilization or permanent dependency 
on outside agencies self-determination and independence for 
Kosovo should be the primary objective of international 
leaders.
    Such a step could have several positive ramifications. 
First, it would restore Kosovar confidence in the international 
community and help preclude potential radicalization of 
Albanian politics as long-term ambiguity on the status question 
can undermine the democrats and favor the demagogues.
    Most policymakers unfortunately still adhere to the 
conventional wisdom that an independent Kosovo would 
destabilize the Balkans. In reality, it seems to me it is the 
forcible maintenance of Yugoslavia in which we are now ready 
accomplices that continues to generate instability.
    Second, protection. Acceptance of future independence can 
undercut the threat of a new Serbian takeover by delegitimizing 
Belgrade's incessant provocations on the territory. 
Additionally, criteria and timetables for a democratic 
independent state will give both the internationalists and the 
locals a concrete goal to which political, institutional, and 
economic reconstruction can be directed.
    And third, Kosovo's statehood can also help resolve the 
wider Albanian question in the Balkans. I believe instead of 
provoking calls for a greater Albania which we keep hearing, 
such a step could actually pacify the more radical Albanian 
demands, allow Europe to increase its positive influences by 
dealing with Kosovo as a country in its own right, and 
delegitimize any potential threat to Macedonian or Montenegran 
territory.
    Over the coming year I believe the international community 
needs to focus attention on two overriding questions in Kosovo, 
political legitimacy and international dependency. First, 
political legitimacy. In line with the resolution of its status 
question, Kosovo will need a new indigenous constitution that 
can help concentrate political energy, give credence to 
legality, and provide a more solid basis for democratic 
development.
    All major political players in Kosovo evidently support 
such an approach, as it would create the foundations of 
statehood. The organs of government, including the 
constitutional assembly, would then acquire the confidence of 
the public and the commitment of all major political leaders.
    Second, international dependence. A dependency relationship 
has emerged between the Kosovars and international 
institutions. That may become more difficult to overcome the 
longer the current stalemate exists. Moreover, I believe such a 
relationship could seriously threaten the development of 
indigenous institutions and democratic procedures.
    To counter such a phenomenon, a comprehensive election 
process for both local and national elections is essential 
through a campaign of voter registration, political party 
development, and civic education, and here I think the United 
States can play a major role. This could help establish 
structure, legitimacy, and authority for elected Kosovar 
leaders. Local and central Kosovar authorities must then obtain 
the authority and resources to govern, and not simply to 
consult with international agencies.
    Above all, I believe there needs to be clarity as to the 
powers of the proposed local and central government, its 
relationship with the interim U.N. authorities, and its 
independence from the Serbian and/or Yugoslav regime.
    Thank you very much. That concludes my summary.
    [The prepared statement of Mr. Bugajski follows.]

                 Prepared Statement of Janusz Bugajski

                         KOSOVA: ONE YEAR LATER

    Since the liberation and occupation of Kosova by NATO forces in 
June 1999, both constructive and destructive developments have been 
evident on the territory as a result of internal and external factors. 
On the positive side:

  <bullet> Security: Kosova has witnessed the expulsion of repressive 
        Serb security forces and the successful return of over a 
        million Kosova Albanian refugees and displaced persons to their 
        homes. Under the United Nations Mission in Kosova (UNMIK), NATO 
        established a Kosova Force (K-FOR) consisting of approximately 
        50,000 troops that is effectively safeguarding the territory 
        from Yugoslav or Serbian military intervention.

  <bullet> Reconstruction: Some basic reconstruction work has been 
        accomplished, especially in providing shelter, food, and 
        medical aid to the bulk of the destitute. Several initiatives 
        have begun in encouraging the development of small businesses 
        and in identifying key infrastructural projects over the coming 
        years. Efforts are also underway to rebuild the educational 
        system, the energy network, and the public administration.

    However, four major shortcomings of the Kosova operation have also 
been evident.

  <bullet> Political Paralysis: There is currently no legitimate 
        Kosovar Albanian authority and this contributes to paralyzing 
        the development of political institutions and the emergence of 
        a civic society. In some respects, such a situation suits U.N. 
        officials who argue that the Kosovars are simply unable to 
        govern themselves and need to be shepherded by international 
        players into some future Yugoslav framework. The creation of a 
        Kosova advisory council under the supervision of the U.N. 
        Special Representative Bernard Kouchner has not filled the 
        political vacuum.

  <bullet> Criminality: The problem of criminalization and the lack of 
        the rule of law has become widespread in Kosova. Corruption and 
        crime threaten the security of residents, perpetuate a climate 
        of revenge against minority Serbs, and undermine the emergence 
        of a democratic system. Such a phenomenon also serves those who 
        argue that the Kosovars are not prepared for self-government or 
        statehood. In addition, Serbian special forces and 
        paramilitaries continued to operate in Kosova, deliberately 
        provoking violence to discredit international institutions, to 
        undermine the longevity of the NATO mission, and to discount 
        any realistic possibility of Kosovar self-government.

  <bullet> International Failings: Kosova has witnessed a number of 
        institutional shortcomings by international agencies. This has 
        been visible in a lack of serious reconstruction resources, an 
        insufficient number of international police officers, turf 
        battles between international organizations, the undercutting 
        of embryonic Albanian local authorities, and the creation of 
        deliberative councils without any ultimate authority or 
        decision-making powers. There have also been persistent delays 
        in the training and deployment of an indigenous police force 
        and the establishment of a credible and professional judiciary 
        system that could enforce law and order on the territory.

  <bullet> Status Question: The most important failing is the lack of 
        final legal status for Kosova as an independent state. Western 
        leaders believe that postponing the decision on Kosova's status 
        will allow for democratic changes to take place inside Serbia 
        and enable a new relationship to emerge between Serbia and 
        Kosova once Yugoslav President Milosevic is ousted. However, in 
        the interim and regardless of whether such a rosy scenario 
        actually materializes, NATO may be faced with escalating anger 
        among the Albanian community if the U.N. insists on preserving 
        Kosova within Serbia. The vast majority of Albanians support 
        statehood for Kosova irrespective of any possible leadership 
        changes in Belgrade.

    For the indefinite future Kosova will remain an international ward, 
without any inspiring vision for its future status. The U.N. mandate in 
Kosova is ultimately designed to return the region to Belgrade's 
jurisdiction. A large-scale international presence will continue until 
conditions have been met for a peaceful reintegration of the territory. 
But such a scenario has raised serious questions about the self-
determination of Kosova's population and the instabilities that could 
be generated by any planned reintegration into Serbia. A valid argument 
can be made that in order to avoid future destabilization or permanent 
dependance on outside agencies, self-determination and independence for 
Kosova should be the primary objective of international leaders. Such a 
step could have several positive ramifications.

  <bullet> Stabilization: It would restore Kosovar confidence in the 
        ``international community'' and help preclude a potential 
        radicalization of Albanian politics as long-term ambiguity on 
        the status question can undermine the region's democrats and 
        favor its demagogues. The ``non-status'' stalemate or the 
        proposed return of Kosova to Serbian or Yugoslav control may 
        exacerbate the problems already faced by international actors 
        in guaranteeing security and building credible local 
        institutions. Most policy makers still adhere to the 
        conventional wisdom that an independent Kosova will destabilize 
        the Balkans. Comparable arguments were employed a decade ago in 
        opposition to Slovenian and Croatian statehood. In reality, it 
        is the forcible maintenance of Yugoslavia that continues to 
        generate instability.

  <bullet> Protection: Acceptance of future independence can undercut 
        the threat of a new Serbian takeover by deligitimizing 
        Belgrade's incessant provocations on the territory. 
        Additionally, criteria and timetables for a democratic 
        independent state will give both the internationals and the 
        locals a concrete goal toward which political, institutional, 
        and economic reconstruction can be directed.

  <bullet> Regional Security: On the international arena, it is worth 
        considering some positive implications of a Kosovar state, 
        initially under the auspices of an officially declared 
        international ``protectorate.'' For example, any potential 
        threat from Belgrade toward Albania will be terminated; 
        Montenegro could feel more secure from a Serbian attack; while 
        Macedonia's shorter border with Serbia will limit the 
        destabilizing effects of Belgrade's nonrecognition of 
        Macedonia's frontiers. Above all, a substantial NATO presence 
        while a national Kosova defense force is trained and empowered 
        will convince military forces in the surrounding region to 
        desist from any provocative actions.

  <bullet> Albanian Question: Kosova's statehood can also help resolve 
        the wider ``Albanian question'' in the south Balkans. Instead 
        of provoking calls for a ``Greater Albania'' such a step could 
        actually pacify the more radical Albanian demands and allow 
        Europe to increase its positive influences by dealing with 
        Kosova as a country in its own right. A timetable can therefore 
        be pursued by internationals working in tandem with indigenous 
        parties in the construction of Kosova's political, legal, and 
        security institutions. The interim international ``ward'' could 
        thereby evolve toward autonomy and sovereignty, regardless of 
        whether Serbia remains under the control of its kleptocratic 
        nationalist-socialist elite or descends into protracted 
        violence and civil war.

    Over the coming year, the ``international community'' needs to 
focus attention on two overriding questions in Kosova: political 
legitimacy and international dependency.

  <bullet> Political Legitimacy: In line with the resolution of its 
        ``status'' question, Kosova will need a new indigenous 
        constitution that can help concentrate political energy, give 
        credence to legality, and provide a more solid basis for 
        democratic development. All major political players in Kosova 
        evidently support such an approach as it would create the 
        foundations of statehood. The organs of government, including a 
        constitutional assembly, would then acquire the confidence of 
        the public and the commitment of all major political players. 
        In this context, extremist parties advocating ultra-
        nationalist, anti-minority, and authoritarian solutions would 
        be exposed and marginalized so that they do not undermine the 
        body politic of the new state.

       The OSCE can oversee the creation of a new Kosovar 
        administration in a much more resolute manner than was evident 
        in Bosnia-Hercegovina. Indeed, during the next two to three 
        years Kosova can establish all the elements and qualifications 
        for statehood. The Prishtina government will of course have to 
        renounce any territorial aspirations and sign treaties with its 
        three Slavic neighbors, and commit itself to democratic 
        pluralism, the rule of law, a market economy, and European 
        integration.

  <bullet> International Dependence: A dependency relationship has 
        emerged between Kosovars and international institutions that 
        may become difficult to overcome the longer the current 
        ``stalemate'' continues. Moreover, such a relationship could 
        seriously threaten the development of indigenous institutions 
        and democratic procedures. To counter such a phenomenon, a 
        comprehensive election process for the local and national 
        ballot is essential through a campaign of voter registration, 
        political party development, and civic education. This could 
        help establish structure, legitimacy, and authority for elected 
        Kosovar leaders. Local and central Kosovar authorities must 
        obtain the authority and resources to govern and not simply to 
        consult with international agencies. Above all, there needs to 
        be clarity as to the powers of the proposed central government, 
        its relationship with the interim U.N. authorities, and its 
        independence from the Serbian and Yugoslav regime.

    Senator Smith. Thank you all.
    I wonder if any of you would care to respond to, I think 
both of us, what both of us were saying, that if we actually 
just come forward and say we are now for independence, and that 
is the stated goal and the condition of the United States 
continued presence there, what dynamic does that set in place?
    Ambassador Abramowitz. I will give you my perspective. I 
think while one must have definite objectives, that one cannot 
also depart from political reality. I believe it is very 
important, as I said in the testimony, to make it clear that--
and this the United States can do without necessarily creating 
a division in the alliance. Make it clear that Serbian rule 
will never return to Kosovo. It does not now have to create, I 
believe, a problem within the alliance and within the 
international community by trying to change U.N. Resolution 
1244.
    But I think the most important thing to do over the next 
year is basically what Mr. Bugajski just said, to start to work 
to create Albanian institutions, and to give Albanians charge 
to begin that process. That is not an easy process, because the 
leadership is absent in many ways, but that, to me, is the 
beginning of the process of establishing the movement toward 
what I think will be eventual independence without creating an 
enormous brouhaha in the international community.
    So that is my view on it, is that we have to have that, I 
think, as an ultimate objective, but we have to move there with 
deference to what the circumstances are in the international 
community, and particularly within the alliance. That may seem 
a little faint-hearted, but that is what I feel at this time.
    Senator Smith. That is a very valuable insight.
    Dr. Williams. Addressing that question, there would be 
three consequences of articulating a policy of conditional 
independence. The first would be that it would create an 
incentive, or at least a possibility of incentivizing the 
Kosovo Albanian population to behave in a more moderate and 
less radical fashion.
    Generally a significant percentage of the population are by 
nature moderate. However, the conflict and near apartheid of 
the last 10 years has resulted in a radicalization of that 
population. Denying them their aspirations for independence has 
to date played into the hands of the more radical elements.
    The second is that it would help us to create a political 
reality with our European allies. We deferred to our European 
allies in 1991. We had the conflict in Croatia and in Bosnia. 
We stepped in, tried to fix the problem. We deferred to our 
European allies at the initiation of the Kosovo conflict. 
Again, the American Government had to step in, fix the problem 
through the use of force.
    We are now deferring to our European allies on winning the 
peace in Kosovo. It is not going to work. The Americans have to 
take a leadership role, and independence, or conditional 
independence or some other forward-thinking policy would have 
the effect, I think, of galvanizing the Europeans. They would 
object. There would be difficulties, but we could bring them 
along with us.
    Third, and probably most importantly, it would lay the 
blame for the loss of Kosovo, which will occur 3 years, 5 
years, 10 years from now. Sooner or later Kosovo will be lost 
to the people and the Republic of Serbia. It would lay this 
blame at the foot of Milosevic.
    It could then be used by the democratic opposition, which 
are very pluralistic and diverse, in a good way and in a bad 
way, but it would also remove it from the tasks that any 
genuine opposition will have to deal with once they come into 
power in a post Milosevic regime. If a truly democratic 
opposition takes power and then gives the Kosovars the right to 
vote for independence, they will lose Kosovo, and you will see 
a transition back to more nationalist Serbian politics.
    Senator Smith. Mr. Bugajski.
    Mr. Bugajski. Yes. Just to reiterate what Paul has said, I 
would say that it would send a very clear signal to Belgrade 
and to the Serbian people that basically focus on your domestic 
issues, Kosovo is out of bounds. This is now an international 
issue. We are moving toward independence, whatever the steps.
    Paradoxically, though, I think if it is important to the 
Serbs--in other words, Kosovo is the heartland, so to speak--
then it would further delegitimize the Milosevic regime, 
because it would be clear Milosevic had lost the territory. If 
it is not important to Serbs, and according to recent public 
opinion polls it does not even figure amongst the six top 
issues that concern ordinary Serbs, then it really does not 
matter to them, in other words, we may have exaggerated the 
importance of Kosovo to the Serbs.
    So either way, I think we will win vis-a-vis Belgrade.
    Senator Smith. So if we set up this process, establish the 
democratic institutions, and define the goal as conditional 
independence, if you could all speak briefly to the collateral 
consequence to Macedonia and Bosnia, what does it mean to them?
    Ambassador Abramowitz. I think one should not be too 
categorical. There is a lot we do not know. There is a lot of 
things that can happen. For example, I think--take the case of 
Greece. I think if--and this is no reason for not doing it, but 
if Kosovo moved toward independence I think Greece would have a 
fit.
    Senator Smith. Greece would what?
    Ambassador Abramowitz. Have a fit. What Greece would do in 
that case, I do not know, and the situation in Macedonia is 
uncertain. There are a lot of Albanians who recognize they do 
not want conflict. They want to try to make Macedonia work. 
There are a lot of people in Macedonia who have had longer term 
means.
    My own view is that we can proceed at some point toward 
independence and still maintain the viability of Macedonia, but 
I think it will require an awful lot of effort and an awful lot 
of attention to what is happening in Macedonia internally, and 
I do not say that with great confidence, and I do not think 
anybody can speak with great confidence on this subject. It is 
a legitimate concern to be worried about, but I believe--my own 
belief is, it can be managed.
    But it has to be very significantly thought through, the 
things you have to do to make sure that nothing untoward 
happens in terms of the stability of Macedonia.
    Senator Smith. Do you have a brief comment, Dr. Williams?
    Dr. Williams. I think there would be important consequences 
both for Bosnia and Macedonia. In Bosnia it would demonstrate 
the West's willingness to roll back the gains of ethnic 
aggression. We need to resurrect the peace in Bosnia. One way 
of doing that is to evolve the Dayton Accords. Working on 
conditional independence for Kosovo would set a precedence for 
managing and somehow constructing a new process in Bosnia.
    In Macedonia, as Ambassador Abramowitz has pointed out, it 
is highly unstable. There are three options. Either we manage 
eventual independence of Kosovo, we keep our troops in Kosovo 
indefinitely, or we withdraw our troops and there is a process 
of de facto independence, which we will not be able to regulate 
and which will be met with aggression by Serbian forces. It 
brings us back to 1998 all over again.
    Senator Smith. Mr. Bugajski.
    Mr. Bugajski. I personally think a little bit what Paul was 
saying, that Macedonia does remain a great unknown in terms of 
its internal development and ethnic developments. However, I do 
believe that the nonindependence option for Kosovo, either 
long-term international dependency or reintegration into 
Yugoslavia, does actually encourage radical elements, 
particularly those factions that favor a Greater Albania, and I 
think they could become more important and active and even gain 
some popular support if they see the international community is 
not favoring independence for Kosovo, and they could spread, 
let us say, their message, their activities to part of 
Macedonia.
    At this point I do not believe most Albanians in Macedonia 
would want to join either Kosovo or Albania. A lot, of course, 
depends on the development of internal political relations 
within Macedonia, and this is the key, of course, in the south 
Balkans we should be focusing on.
    Senator Smith. We are very pleased to be joined--much 
earlier, but the first time we have acknowledged--by the 
ranking member of the full committee and of this subcommittee, 
Senator Biden.
    Senator Biden. I apologize, gentlemen. There is a defense 
bill on the floor and a lot of amendments, and I have been 
called in and out to come do my amendment and then not, so I 
apologize for the delay.
    I found the testimony interesting and informative and, as 
usual, Mr. Ambassador, I found your testimony to be first-rate. 
Not that the others were not, but you quite frankly have 
captured the nuances of the problem better than anybody.
    I find it kind of fascinating, the little scenario, sir, 
you just went through about if, in fact, we made it clear that 
there was no independence in the future and there was going to 
be some continued association with Serbia, that could 
potentially radicalize the population and Macedonia could cause 
a problem.
    Well, if all of that happens, one of the things I am 
confident of from meeting with Mr. Thaci on several occasions, 
and being there on half-a-dozen occasions and talking, I think, 
to every player in the process over the last 8 years, including 
everyone in Kosovo the last 2 years, if any of that happens, I 
just want to go on record doing something no one should ever 
do, making a prediction, and the prediction is, we are out, the 
Europeans are out, Slobodan Milosevic owns it all.
    The idea that Thaci and any successor, KLA, could possibly 
withstand any movement by Serbia is nonexistent--nonexistent--
and the possibility in the face of a withdrawal under the 
circumstance I mentioned of NATO forces, of NATO going back in 
is nonexistent, and your formulas are, in my humble opinion, 
formulas for absolute disaster.
    I think the only thing to focus on here is, how do you keep 
this thing going as long as you can without things blowing up, 
and hoping the dynamic circumstance emerges that provides 
opportunities we do not even know exist now to take advantage 
of moving toward stability, and I have a few questions along 
those lines, if I may.
    The idea that we defer to allies, the implication being 
that had we not we would have had a better outcome, I do not 
know where you have been the last 5 years. If we had not 
deferred to our allies in some of the things, there was no 
possibility this place would have given any--any--support for 
sending any Americans anywhere in the Balkans if the allies 
said, we are not in.
    I find these exercises in what we should have done 
fascinating. I mean, we just beat back by, what, seven votes a 
proposal to set an end date to get out and conditions for our 
allies that reflect, in case you have not noticed, that close 
to half this place ain't sure about us even being there when no 
one is being killed, and the absolute condition of being there 
is that the allies do more.
    So we are going to stand down our allies, right. We are 
going to stand them down. Now we are going to get tough with 
them and tell them we are going to do it our way, that is the 
implication, because we have yielded to them.
    I would like not to have to yield to them, but I would like 
to find 49-plus votes here on the floor if we did not on some 
of these things, which takes me to this question in point.
    I think, Ambassador Abramowitz, if I understood the 
statement correctly it is absolutely right. The way to do 
this--and I would like you to respond--is to make it clear that 
there will not be a return to any circumstance within Kosovo 
where Belgrade dictates outcomes in any way in Kosovo, and we 
have opened the question as to whether or not there will be an 
incredibly loose federation, independence, or a process toward 
independence.
    I just got finished meeting with a number of Greek 
officials. I promise you, Mr. Ambassador--you are more 
diplomatic than I am--the prospect of us declaring that we are 
for an independent Kosovo means goodbye Charlie. You know what 
is going to happen. They will cease and desist from their 
support. You will see the French follow them, and you will see 
a vote on the floor of the U.S. Senate, because they will not 
be coming forward with their commitments, for American troops 
to be out of there by June. I will bet my career on it. By next 
June, troops will be out.
    So it seems to me that one of the things we have got to 
figure out is, what are the things we should not be doing, 
rather than what are the things we should be doing. One of the 
things I want to raise is that we are about to vote on an 
amendment by a Senator who I have great respect for, and who 
has been the person who has most ardently disagreed with my 
views on the Balkans for the past 8 years, and that is Senator 
Kay Bailey Hutchison.
    She has an amendment, and she has been consistent for 8 
years, and so it is not like this is anything new--and some 
think this is a good idea. She has a sense of the Senate 
resolution calling for a Balkan stabilization conference that 
contemplates a rewriting of the borders. She cites the Treaty 
of Vienna, or the Treaty of Berlin from 1878, and she cites 
London, 1913, et cetera, in all of which we wrote borders.
    I will painfully point out that they are all disasters on 
the floor, but they are the models that we are to use, and we 
would invite all parties--I assume that includes Slobodan 
Milosevic--to this conference.
    Now, my general question is, should we be at this moment 
making any substantial changes in our posture in Kosovo? Should 
we be calling a major conference to get all the parties 
together? Should we be declaring that we are on the road to 
independence?
    I was very intrigued--and I agree with some of what Dr. 
Williams said. I wish there were a way in which we could say, 
here is the deal. We are going to further establish clearly 
Kosovar institutions and support them in return for commitments 
that you will engage in a rule of law that is even remotely 
approaching a rule of law, including acknowledging a 
multiethnic society in your future, and we will see about 
independence. We will see where this takes us.
    But talk to me about whether or not we should be having any 
big conference of any type now.
    Ambassador Abramowitz. Well, Senator, you as always raise 
very important considerations, practical as well as conceptual. 
I do not know of any conference in the Balkans that has made a 
contribution, an international conference, and certainly not 
the Congress of Berlin, and that is one of the sources of the 
continuing problems.
    So the notion that we would get together a group of nations 
with different views, particularly about where Serbia under 
Slobodan Milosevic fits in, seems to me a formula for further 
chaos, further disorder in the Balkans, and it is amazing, I 
think, that this is being proposed in a serious way to resolve 
really difficult problems.
    Now, I do think, however, that--I guess I perhaps have been 
in the State Department too long, and tend to see some of the 
complexities more than I should. I do believe, however, that we 
cannot just drift. We cannot just accept the fact that it is 
very politically difficult, which it is. The Russians, the 
Chinese, a lot of the allies, that they have different views.
    Senator Smith. Ambassador, we cannot just drift. We cannot 
keep seven votes here for who knows how long.
    Ambassador Abramowitz. I am trying to answer the question 
of what do we do in the short term, and we can be swept along, 
so to speak and hope that something turns up. That usually 
turns out to be American policy. Let us wait until something 
good turns up and then we do not have to face critical 
difficulties with our allies, or the Russians, or the Chinese.
    I sort of believe that the best thing is to start a process 
in which the people of Kosovo know that they are moving ahead 
and that the facts that will be represented by functioning 
Kosovo institutions establishes a basic underpinning.
    Senator Biden. Can you give me a specific example of an 
institution you have in mind?
    Ambassador Abramowitz. The obvious institution is an 
assembly, a legislative assembly, because the place does not 
have a constitution. We are now developing a constitution. I do 
not know what degree of consultation with the Albanians is, but 
clearly, if you are going to develop an entity it has got to 
have some rules. It does not have any rules now.
    You have a half-hearted United Nations administration which 
provides a certain amount of law and order but clearly does 
nothing to build an entity, so you have to start building an 
entity, it seems to me, or you are going to get ultimately 
developments in Kosovo that are going to create an awful lot of 
trouble and make it even worse on the Hill.
    So I do not believe it is a prudent policy, whatever the 
international complexities are, and they are great, and the 
domestic complexities, to sit still and hope for the best. My 
answer is a very limited one under the circumstances, that the 
United States, for its own, should make it clear that while it 
is not precluding Kosovo independence, it is saying what will 
not happen any more, that we will not stand by and we will not 
accept Serbian rule for Kosovo.
    That to me is an important beginning, and I think it does 
not create a major crisis in the alliance.
    Senator Biden. I am of that view, Mr. Ambassador, and I 
will cease because Senator Lugar has not had a chance to speak 
and I will ask you to refrain from answering the rest of my 
question until Senator Lugar is done. However, the last two 
times I was there, I asked all the parties I could meet, 
including former and present KLA people, about us just imposing 
a constitution, just writing a constitution, just simply having 
the United Nations go in there as a mandate and lay out a 
constitution and set up those institutions now.
    Everyone I spoke to said they would welcome the idea of 
this being done by a committee, or this being done by 
consultation, Albanian as well as Serb, because they cannot 
figure out how to get from here to there.
    Ambassador Abramowitz. Well, you are referring to an 
existing problem, that the Albanians are divided. There is a 
lot of fractionating organizations there, fractionated 
politics, and some people will say, post constitution. I am an 
American. I have little problems about the constitution----
    Senator Biden. When I say impose a constitution, I mean we 
did not, quote, impose a constitution in Germany, and we did 
not impose one in Japan, but we did--but that is another story.
    I would yield the floor. Thank you.
    Senator Smith. Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
appreciate each of the papers enormously. I thought they were 
brilliant, and make a real contribution and have stimulated our 
conversation.
    Picking up where Senator Biden left off, it seems to me 
there is a case to be made for the United Nations, NATO, the 
United States, or somebody to formulate a constitutional 
system. We discussed today--and this is not a pejorative term--
that Kosovo is a ward of international security forces which 
for the moment, depends on NATO or the U.N. mandate and is 
likely to be the case for a long time.
    In other words, this is a very special case which, for a 
good reason, the rest of the world and us got involved with 2 
million people, a million of whom were dispersed, and we 
discussed that. A million came back. How in the world can 
people who are shifted around in 1 year, lose their lives and 
families and fortunes, are redistributed back and expected to 
have a deliberative assembly and then work all this out. It 
seems to me to stretch the imagination, but the failure to do 
so does not stretch imagination. It is chaos.
    In any event, I think, and am stimulated by your testimony 
today, that I can conceive the international ward, where we 
provide a constitution, and people begin to think and 
deliberate on democracy.
    Now, meanwhile, as you suggest Ambassador Abramowitz, it is 
clear, that since we have surrounded this in protective 
coating, the Serbs are not going to get into it. We have the 
armed forces, and we would beat them, and we could stay there 
and demonstrate that. That would be true if there were 
Albanians coming in, Greeks coming in, whoever wants to come 
in. This is going to be a sacrosanct place for 2 million people 
involved in learning how to build democratic institutions.
    Your suggestion, and Dr. Williams' suggestion, is that 
eventually there has to be integration not only of Kosovo but 
of a lot of places in southeastern Europe into European 
institutions, perhaps joining the European Union, maybe joining 
NATO in some form, but at least becoming involved and 
integrated, but that may take some time, too.
    As a matter of fact, even well-developed situations may 
have to be discussed 10 years from now including European Union 
membership. That was always the problem in discussing NATO 
expansion. Ideally, some said, let the economics flow, and the 
institutions, and then you pick up the military, but that just 
did not happen.
    It seems to me if the United States is to be involved, we 
are going to have debates on the floor of the Congress, the 
rest would be a demonstrated American interest in this that is 
more substantial.
    Now, a part of this may be that we would say the Europeans 
are not moving fast enough, but we believe that we Americans 
want to establish much more of a relationship with an expanding 
Romania, or Bulgaria, or with Greece, for that matter.
    In other words, we accept the fact that they are in Europe, 
but the world is very small. You know, why not have much more 
extensive bilateral relationships with the United States? Why 
not allow or facilitate the United States to come in in a very 
big economic way?
    So you do have stability here, but at the pace the 
Europeans are going at it, you will never make it. They will be 
quarrelling, warring, be back into it trying to separate the 
pairs again.
    This might get the European juices going and they would 
say, this is an American invasion. We already think you are 
involved in hegemony and trying to do your own thing, and this 
simply proves it, and we might just say, you are right. You are 
absolutely right. That is what we are going to do, because you 
folks again and again come to us and say, we cannot handle it. 
That really is the basic reason for the American presence.
    The Europeans say, we cannot handle it, so we say, we 
accept that, and you accept that, because we are coming. We are 
not about to devote tens of billions of dollars to fight wars 
spasmodically, then have big debates whether we come in or out, 
or what the end game is.
    The end game for us is a prosperous southeastern Europe. 
Kosovo got us going. It may be a dubious enterprise. It may be 
a good one, but nevertheless we are not a cut-and-run group. We 
are not going to undermine NATO. We are not going to undermine 
integration. As a matter of fact, our policy is really to come 
in in a big way and to get it all straightened out.
    Now, how does that strike you? In other words, as we had 
been talking today, we criticize the previous testimony as 
there being no strategy, and you have talked about tactics, and 
that is about, muddling through, hanging on, hoping for the 
best. Maybe the seven-vote margin Senator Biden mentioned 
disappears, and we all leave. Maybe Montenegro comes or goes, 
and no one really cares.
    I am suggesting that if we do care, and I think we should, 
for strategic reasons and security reasons of our own, there 
has to be something for the American people and its elected 
representatives to support, something to hang onto to say, this 
is us, this is our strategy. This is good for America.
    Now, why do we not try to do that, Dr. Williams? Do you 
have an idea about this?
    Dr. Williams. Yes, Senator. I would agree with you and 
Senator Biden that the first step in a policy of intermediate 
sovereignty or earned independence is imposing a constitution.
    Now, the important question is, which type of constitution? 
In Bosnia we imposed a constitution on the Bosnian Government 
similar to the constitution of the former Yugoslavia, the only 
one of its kind. It institutionalized ethnic division and 
created institutionalized political gridlock.
    The alternative approach would be constitutions like 
everywhere else in western and central Europe and the U.S., 
majority rule with minority rights protections.
    One of the concerns we have about that first step of 
intermediate sovereignty is that we are working with the 
European allies rather than leading our European allies to a 
policy, and they are pursuing a similar approach to Dayton, 
which is institutionalized ethnic vetoes, rotating 
presidencies, rotating supreme court justices. We cannot 
dismiss the Europeans, but we need to demonstrate to them the 
benefits of majority rule, minority right protections, and 
putting it in part of a larger package.
    I think from afar one reason why some Senators are 
uncomfortable with our continued presence in the Balkans is the 
lack of a strategic policy. If we lead the European allies to a 
policy, starting with the constitution, and not only imposing a 
constitution but also imposing things that you could not impose 
on a sovereign state--thou shalt not have a political or 
territorial association with certain neighboring states--and 
then things which are part of international law, respecting the 
territorial integrity of neighbors.
    Ambassador Abramowitz. Senator Lugar, I think you are 
asking some very fundamental questions, and the problem is that 
we are trying to solve a very difficult problem in a short 
period of time, and it cannot be done that way, and our 
domestic politics or domestic considerations prevent it from 
being done, or insisting that it be done in an impossibly short 
time.
    I do not know how to correct that, because for me there is 
no way, at least, that American troops can be withdrawn from 
Kosovo for many years. Whatever we do in terms of enunciating a 
long term goal, that happens to be the case.
    I also believe that these countries are not going to create 
stability by regional associations. That is a wonderful thing 
to encourage. I do not think it will happen that way. If you 
are going to create stability, you have got to bring them into 
a wider association of Serbs dealing with the Kosovars, and 
Kosovars dealing with the Macedonians. You have got to give 
them a wider goal.
    That is why I always have said that if you were ever going 
to create stability in Yugoslavia, it is not going to be done 
by the--the Americans are necessary, but the long term has to 
be to draw them in seriously, and I believe the Europeans--I 
probably will regret ever saying this. I believe the Europeans 
increasingly recognize that.
    Now, whether they can get their act together, whether their 
institutions have enough flexibility to do that, I do not know, 
but I believe that is one reason why we need troops there, so 
we can bang on them and legitimately say, it is your 
responsibility to do certain things, and we are going to keep 
reminding you of this, and we are making a contribution, 
because I believe that if we do take out U.S. forces, or we go 
down to a platoon or company, or even a battalion, I believe 
that I think it would send terrible security signals, but I 
believe it would undermine any serious long term effort.
    How you get the U.S. Congress to accept that this is a long 
term effort is beyond my capability, and I think one of the 
things Mr. Milosevic quite frankly is looking at is the 
Americans, if we get a new administration, are going to take a 
long term view of Kosovo.
    Senator Lugar. I think there has to be an economic 
dimension, not just a political one. In other words, that will 
not make it on humanitarian grounds alone for strategic 
stability. There has to be a context in which there are jobs, 
and arguments in which grassroots America sees some value in 
southeastern Europe beyond what they see now.
    Ambassador Abramowitz. I am sort of skeptical it can be 
done economically.
    Senator Biden. I agree. I wish, if we are going to have a 
Republican President, that it would be you, and I mean that 
sincerely. Unfortunately, we have both been through that, and 
it did not work.
    I probably just ruined his reputation by saying that. But 
all kidding aside, I think if a President, if someone came 
forward with a strong proposal saying what we were going to do, 
what the objective was, et cetera, we would have the ability to 
go more than seven votes.
    I would point out to everyone that we went through Bosnia, 
declared a failure, continued to be declared a failure, and we 
beat back on three occasions an attempt to withdraw from 
Bosnia. Now no one is trying to withdraw from Bosnia.
    Bosnia clearly has a long way to go, a long way to go. But 
my point is, I do not think it is as hard to sustain American 
commitment down the road as we are making it sound when I talk 
about the seven votes.
    The general point I wanted to make is, it is close to 
impossible to sustain it if the end result is an open fissure 
within NATO that results in any one of the NATO parties 
withdrawing. That is the thing that will, I think, toll the 
bell here quickly.
    We have more forces there, or as many forces there as last 
year. You do not hear that, and even though all of us who know 
the issue well can point to an incredible number of failures in 
Bosnia and what has not been done, we have the support now, I 
believe, to sustain a continued effort to try to make it work. 
That is the only general point I wanted to make.
    And I did not want to mislead people by suggesting that I 
thought the support was so fragile that it would evaporate. It 
will evaporate only if we end up in a shooting match with our 
European allies that results in them withholding either troops 
or money or police or whatever. That will be the thing that I 
think will change 14 votes.
    I am not sure I am making my point clear, but I hope I am, 
and I think a more robust effort is not inconsistent with 
getting American support.
    Senator Smith. If there is no objection we will include 
Senator Biden's opening statement in the record as if read.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Thank you, Mr. Chairman, and thank you for calling this important 
hearing.
    My views on Kosovo are a matter of record:

    <bullet> First, I believe that the Balkans--Kosovo included--are 
not a strategic sideshow as some have asserted. The region is vital to 
U.S. national security, since its destabilization would harm all of 
Europe.

    <bullet> Second, for that reason, we did the right thing in 
Operation Allied Force. In fact, I introduced the resolution 
authorizing U.S. participation in a NATO air campaign, which passed the 
Senate. The House, as we know, failed to pass such an authorization.
    In the middle of the war, I co-sponsored with Senator McCain a 
resolution, which was tabled, authorizing the President to use all 
necessary force to achieve victory.

    <bullet> Third, Operation Allied Force was successful in that it 
succeeded in reversing the vile ethnic cleansing of Slobodan Milosevic. 
Ensuing problems in peace-enforcement cannot detract from our having 
achieved the air campaign's principal goal.

    <bullet> Fourth, although a year after the end of the air campaign 
there remains a huge amount of political, economic, and societal 
reconstruction to be done, measurable progress has been achieved.

    <bullet> Fifth, our European allies are for the first time in 
memory carrying their fair share of the burden in the peace-enforcing 
and reconstruction effort. This is a development of the first order of 
importance, particularly for NATO.

    <bullet> And sixth, and last, we must stay the course in the 
Balkans, including Kosovo. This follows from my first postulate, that 
stability in Southeastern Europe is a vital U.S. national security 
interest.

    We Americans are not noted for our patience, but we must learn that 
mammoth reconstruction tasks take time.
    Mr. Chairman, I have a great many questions on the specifics of the 
current situation in Kosovo, and on U.S. and U.N. policies there.
    We have assembled two panels of excellent, expert witnesses, whose 
testimonies I am eager to hear.
    Once again, thank you for holding this hearing.

    Senator Smith. Senator Lugar, do you have anything else?
    Senator Lugar. No.
    Senator Smith. Do any of you gentlemen want to make a 
closing response to any of our comments or criticisms or 
questions?
    Mr. Bugajski. I just wanted to make a short statement in 
response to Senator Biden's comments. I do not think anybody is 
seriously suggesting the Albanians could defend Kosovo if NATO 
withdraws. I think the message is, NATO is in there for a long 
time, but the involvement will be more costly and more complex 
and potentially more damaging if we do not have a vision for 
the Albanians as to their future status, and if in the interim 
we do not seriously build the institutions which are not 
completely dependent on the international community. That is 
the way I put it.
    We are there for a long time, but it is going to be even 
more complicated, more costly, if we do not engage in those two 
strategies.
    Senator Biden. I agree with you, as long as that vision is 
brought along, or shared, or not completely at odds with the 
European vision, with the NATO vision. That was my only point.
    Senator Smith. Dr. Williams.
    Dr. Williams. I would just conclude, in agreement, that we 
will likely have continued U.S. Government support for the 
troops on the ground in Kosovo. However, we must understand why 
they are there, and articulate their objectives.
    Conditional independence and immediate sovereignty is an 
option, and it has been deliberately crafted in a way which is 
long term, which is phased, and I think with substantial U.S. 
leadership we can bring the Europeans--who understandably make 
policy through conferences, we can bring them into our vision 
of a stable Kosovo in a slow and incremental fashion.
    Senator Smith. Gentlemen, thank you. It has been very, very 
helpful and insightful, and we appreciate hearing about the 
nuances of a very complicated situation.
    So with that, this committee hearing is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee adjourned.]



</pre></body></html>
